<html>
<title> - OVERSIGHT OF THE DEPARTMENT OF ENERGY'S RESEARCH AND DEVELOPMENT ENTERPRISE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]








                OVERSIGHT OF THE DEPARTMENT OF ENERGY'S
                  RESEARCH AND DEVELOPMENT ENTERPRISE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2019

                               __________

                           Serial No. 116-30

                               __________

 Printed for the use of the Committee on Science, Space, and Technology






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov 
       
       
       
       
       
       
       
       
                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
36-794 PDF                 WASHINGTON : 2020 
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia 



































                         C  O  N  T  E  N  T  S

                             June 25, 2019

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written statement............................................    11

Statement by Representative Randy Weber, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    11
    Written statement............................................    13

Written statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14

                               Witnesses:

The Honorable Rick Perry, Secretary, U.S. Department of Energy
    Oral Statement...............................................    15
    Written Statement............................................    17

Discussion.......................................................    36

             Appendix I: Answers to Post-Hearing Questions

The Honorable Rick Perry, Secretary, U.S. Department of Energy...    84

            Appendix II: Additional Material for the Record

Report submitted by the Honorable Rick Perry, Secretary, U.S. 
  Department of Energy...........................................   120

 
                      OVERSIGHT OF THE DEPARTMENT 
                         OF ENERGY'S RESEARCH 
                      AND DEVELOPMENT ENTERPRISE 

                              ----------                              


                         TUESDAY, JUNE 25, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

     The Committee met, pursuant to notice, at 10:03 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Eddie 
Bernice Johnson [Chairwoman of the Committee] presiding.





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



     Chairwoman Johnson. The hearing will come to order. And 
without objection, the Chair is authorized to declare recess at 
any time.
     Let me say good morning and welcome to today's hearing, 
the ``Oversight of the Department of Energy's Research and 
Development Enterprise.''
     Welcome, Mr. Secretary. We are delighted that you are here 
today.
     As you know, this Committee has jurisdiction over the 
Department of Energy's (DOE's) vitally important science and 
energy research and development (R&D) activities, the 
laboratories and facilities. So I hope we see you much more 
frequently from now on, and I look forward to working with you 
throughout this Congress.
     With the budget season mostly behind us, I'd like to bring 
just a few items to your attention. I'll start with the good 
news, which is that, despite the Administration's best efforts 
to make draconian cuts across the board to DOE research and 
development programs, most actually fared well in the House of 
Representatives. I am particularly pleased to see the increases 
to the budget for ARPA-E (Advanced Research Projects Agency--
Energy) and the Loan Programs Office, both of which have 
yielded truly transformative results for energy technologies of 
all types.
     I'm also quite happy that the House supported a 
substantial increase in the ITER (International Thermonuclear 
Experimental Reactor) international fusion project, which I 
strongly advocated for as well. I went to visit that project a 
couple of years ago, and practically everybody over there was a 
Texan. It's crucial that we honor our commitment to this 
project and ensure that we are providing the support for that 
the Department of Energy itself identified would be necessary 
to maintain its construction schedule and minimize its total 
cost to U.S. taxpayers. The completion and operation of this 
project will have substantial contributions to what we know as 
fusion energy today. If successful, this project could be a 
huge gamechanger in the energy future of not only our nation, 
but for humanity as a whole.
     Now for the bad news. Yet again, it is extremely 
disheartening that quite frankly disturbing to see the dramatic 
cuts laid out in the Administration's budget proposal. I know 
that you must think I sound like a broken record, Mr. 
Secretary, because we had this same conversation last year, but 
unfortunately, it is necessary until the Administration stops 
producing these short-sighted proposals and deploys a thorough, 
thoughtful process for developing its budget request. I'm 
thankful for your enthusiastic report of all these programs, 
Mr. Secretary, but enthusiasm alone is really not enough for 
the American people. We need to see constructive, forward-
looking budget proposals being submitted to Congress.
     Moving beyond the budget, we are here today to allow our 
Members to ask questions pertaining to all research and 
development programs within the entire Department, as the title 
of this hearing suggests. Constituents from Member districts on 
both sides of the aisle benefit greatly from these programs, 
and we believe it is our duty to ensure the responsible use of 
their tax dollars. Many of these programs haven't been 
authorized in many years, or ever, in some cases. We hope to 
create more thoughtful, bipartisan legislation this Congress to 
support the important science and energy research stewarded by 
the Department, and we want to work with you in that effort.
     With that, I'd like to thank you again for being here, Mr. 
Secretary, and I look forward to a productive discussion this 
morning.
     [The prepared statement of Chairwoman Johnson follows:]

    Good morning, everyone, and thank you Mr. Secretary, for 
appearing before us today. It is good to see you again. As you 
know, this Committee has jurisdiction over all of the 
Department of Energy's vitally important science and energy 
research and development activities, laboratories, and 
facilities, so I hope we see you much more frequently from now 
on, and I look forward to working with you throughout this 
Congress.
    With the budget season mostly behind us, I'd like to bring 
just a few items to your attention. I'll start with the good 
news, which is that despite the Administration's best efforts 
to make draconian cuts across the board to DOE research and 
development programs, most actually fared well in the House of 
Representatives. I am particularly pleased to see the increases 
to the budgets for ARPA-E and the Loan Programs Office, both of 
which have yielded truly transformative results for energy 
technologies of all types.
    I am also quite happy that the House supported a 
substantial increase to the ITER international fusion project, 
which I strongly advocated for as well. It is crucial that we 
honor our commitment to this project, and ensure that we are 
providing the support that the Department of Energy itself 
identified would be necessary to maintain its construction 
schedule and minimize its total cost to U.S. taxpayers. The 
completion and operation of ITER will make substantial 
contributions to what we know of fusion energy today. If 
successful, this project could be a huge game changer in the 
energy future of not only our nation, but for humanity as a 
whole.
    Now, for the bad news. Yet again, it is extremely 
disheartening and quite frankly disturbing to see the dramatic 
cuts laid out in the Administration's budget proposal. I know 
you must think I sound like a broken record, Mr. Secretary, 
because we had this same conversation last year, but 
unfortunately it is necessary until the Administration stops 
producing these short-sighted proposals and deploys a thorough, 
thoughtful process for developing its budget request. I am 
thankful for your enthusiastic support of all these programs, 
Mr. Secretary. But enthusiasm alone is not enough for the 
American people. We need to see constructive, forward looking 
budget proposals being submitted to Congress.
    Moving beyond the budget, we are here today to allow our 
Members to ask questions pertaining to all research and 
development programs within the entire Department, as the title 
of this hearing suggests. Constituents from Member districts on 
both sides of the aisle benefit greatly from these programs, 
and we believe it is our duty to ensure the responsible use of 
their tax dollars. Many of these programs haven't been 
authorized in many years, or ever, in some cases. We hope to 
create some thoughtful, bipartisan legislation this Congress to 
support the important science and energy research stewarded by 
the Department, and we want to work with you in that effort. 
With that, I would like to thank you again for being here, Mr. 
Secretary, and I look forward to a productive discussion this 
morning.

     Chairwoman Johnson. Our Ranking Member is not present, but 
we have a well-known Texan who is sitting in for him today, and 
so now I'd recognize Mr. Weber.
     Mr. Weber. Thank you, Chairwoman Johnson, for hosting this 
hearing, and welcome to our fellow Texas Statesman, Governor, 
Secretary Rick Perry. We appreciate him being here.
     As we've heard from the Chairwoman, the Department of 
Energy and Secretary Perry have proposed a budget that requests 
cuts to programs that have traditionally received bipartisan 
support from this committee. I'd like to remind my colleagues 
on both sides of the aisle of two important facts. No. 1, the 
budget proposal is just that, a proposal. We, the Members of 
Congress, are the ones tasked with actually setting the funding 
levels after hearing from important witnesses like Secretary 
Perry today.
     Second, I want to stress that we will have tough decisions 
to make on the DOE budget. We do not have unlimited funds, and 
we cannot fund every project, no matter how worthy. Critical 
programs must be prioritized, and we have to make smart, 
targeted investments that give the American taxpayer the best 
bang for their buck year after year.
     And at the Department of Energy, there is an incredible 
range of programs for us to review. This committee's 
jurisdiction includes all of DOE's civilian research, including 
over $10 billion in research, development, demonstration, and 
commercial application programs, as well as the Department's 17 
national labs. This amount incredibly totals 1/3 of the 
Department of Energy's budget, 1/3 of the budget.
     Mr. Secretary, I don't have to tell you that you lead an 
incredible Department--quite well, I might add--with a long 
history of major research achievements. Over the past 70 years, 
research conducted at DOE's national labs has led to monumental 
achievements in medicine, manufacturing, computing, as well as 
the development of innovative energy technology. Each national 
lab has made invaluable contributions to the United States' 
scientific progress, and they have repeatedly demonstrated that 
basic science research is the most effective way to encourage 
innovation.
     Additionally, DOE's 26 user facilities provide our 
Nation's researchers with the most cutting-edge tools of modern 
science, like advanced light sources, particle accelerators, 
and the two fastest supercomputers in the world. Each year, 
approximately 22,000 researchers from academia and the private 
sector use DOE facilities to perform new scientific research 
and to develop new technologies.
     Here at home, DOE heads most federally sponsored research 
in the physical sciences. Internationally, the United States, 
through the Department's work, is the world leader in basic 
science research and technological development. But other 
countries like China are making significant investments in 
basic research, threatening America's global standing as the 
leader in scientific knowledge. Without the Department's 
continued investment in basic and early stage research, the 
U.S. is in danger of losing its global technology edge.
     By investing wisely in this research, the Department can 
achieve its goal of scientific discovery and technological 
breakthroughs for future generations. DOE must also invest in 
the research infrastructure that brings the best scientists in 
the world to the United States.
     I look forward to hearing from Secretary Perry about DOE's 
implementation of several key pieces of bipartisan Science 
Committee legislation that was signed into law last Congress, 
including the DOE Research and Innovation Act; the National 
Quantum Initiative Act; and my bill, the Nuclear Energy 
Innovation Capabilities Act.
     The Department of Energy must prioritize the kind of 
ground-breaking basic research authorized in these bills over 
grants for technology that is ready for commercial deployment. 
When the government tries to push developed technology into the 
market, it wastes limited resources in competition with private 
investors. But when basic research is the priority and target 
of Federal support, everyone has the opportunity to access the 
fundamental knowledge that can lead to the development of 
future technologies.
     I want to say thanks again to Secretary Perry for taking 
the time to be here today, and I yield the balance of my time, 
Madam Chair.
     [The prepared statement of Mr. Weber follows:]

    Thank you, Chairwoman Johnson, for hosting this hearing and 
a big Texas welcome to our fellow statesman, Secretary Rick 
Perry.
    As we've heard from the Chairwoman, the Department of 
Energy and Secretary Perry have proposed a budget that requests 
cuts to programs that have traditionally received bipartisan 
support from this committee.
    I'd like to remind my colleagues on both sides of the aisle 
of two important facts. Number one, the budget proposal is just 
that; a proposal. We, the Members of Congress, are the ones 
tasked with actually setting the funding levels after hearing 
from important witnesses, like Secretary Perry today.
    Second, I want to stress that we will have tough decisions 
to make on the DOE budget. We don't have unlimited funds, and 
we can't fund every project, no matter how worthy. Critical 
programs must be prioritized, and we have to make smart, 
targeted investments that give the American taxpayer the best 
bang for their buck year after year.
    And at the Department of Energy, there is an incredible 
range of programs for us to review. This Committee's 
jurisdiction includes all of DOE's civilian research, including 
over $10 billion in research, development, demonstration, and 
commercial application programs, as well as the Department's 17 
national labs. This amount totals one-third of the DOE's 
budget.
    Mr. Secretary, I don't have to tell you that you lead an 
incredible Department, with a long history of major research 
achievements.
    Over the past 70 years, research conducted at DOE's 
national labs has led to monumental achievements in medicine, 
manufacturing, computing, as well as the development of 
innovative energy technology. Each national lab has made 
invaluable contributions to U.S. scientific progress. And they 
have repeatedly demonstrated that basic science research is the 
most effective way to encourage innovation.
    Additionally, DOE's 26 user facilities provide our nation's 
researchers with the most cutting-edge tools of modern science, 
like advanced light sources, particle accelerators, and the two 
fastest supercomputers in the world. Each year, approximately 
22,000 researchers from academia and the private sector use DOE 
facilities to perform new scientific research and develop new 
technologies.
    Here at home, DOE heads most federally-sponsored research 
in the physical sciences. Internationally, the United States, 
through the Department's work, is the world leader in basic 
science research and technological development.
    But other countries, like China, are making significant 
investments in basic research, threatening America's global 
standing as the leader in scientific knowledge. Without the 
Department's continued investment in basic and early-stage 
research, the U.S. will lose its global technology edge.
    By investing wisely in this research, the Department can 
achieve its goal of scientific discovery and technological 
breakthroughs for future generations. DOE must also invest in 
the research infrastructure that brings the best scientists in 
the world to the U.S.
    I look forward to hearing from Secretary Perry about DOE's 
implementation of several key pieces of bipartisan Science 
Committee legislation that was signed into law last Congress--
including the DOE Research and Innovation Act, the National 
Quantum Initiative Act, and my bill, the Nuclear Energy 
Innovation Capabilities Act.
    DOE must prioritize the kind of ground-breaking basic 
research authorized in these bills over grants for technology 
that is ready for commercial deployment. When the government 
tries to push developed technology into the market, it wastes 
limited resources in competition with private investors.
    But when basic research is the priority and target of 
federal support, everyone has the opportunity to access the 
fundamental knowledge that can lead to the development of 
future technologies.
    Thank you again Secretary Perry for taking the time to be 
here today and I yield the balance of my time, Madam Chair.

     Chairwoman Johnson. Thank you. Thank you very much. If 
there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
     [The prepared statement of Mr. Lucas follows:]

    Today we welcome Secretary of Energy Rick Perry to discuss 
the Department's fiscal year 2020 budget request and the 
Department's priorities.
    Before he joined the Administration in 2017, Secretary 
Perry served as the 47th Governor of Texas and under his 
direction, the State of Texas became a national leader in 
energy innovation and economic growth. The Secretary has 
brought this same approach and valuable experience to the 
Department of Energy--and today we can see the results.
    DOE is the nation's largest federal sponsor of basic 
research in the physical sciences and is a world leader in 
technology development and innovation. The Department funds 
robust research programs across the scientific disciplines--
from materials science and mathematical modeling to fusion 
energy science and the characterization of neutrinos.
    Through decades of strategic investments in R&D, DOE is 
also responsible for groundbreaking discoveries in computing, 
manufacturing, and medicine.
    The Committee on Science, Space, and Technology has 
jurisdiction over all of the Department's civilian research, 
development, demonstration, and commercial application 
programs, as well as the 17 DOE National Laboratories. This is 
equal to over $10 billion in spending at DOE--approximately one 
third of its overall budget. Our discussion with the Secretary 
will focus on programs within this broad jurisdiction.
    The President's request emphasizes increased reliance on 
the private sector to drive commercialization of energy 
technologies. This ensures the Department will focus limited 
research funds on the early-stage and basic research that the 
private sector cannot perform. While I support efforts to 
refocus on fundamental research, the FY 2020 budget request 
also cuts funding in the majority of these DOE programs from 
enacted levels.
    This Committee has consistently supported robust funding 
for basic research performed by the Department, in particular 
the Office of Science. The President's request includes an 
overall $1.04 billion decrease in funding for the Office of 
Science--including a $307 million cut to Basic Energy Sciences, 
a $211 million cut to High Energy Physics, and a $161 million 
cut to Fusion Energy Sciences--all programs that have 
historically received strong bipartisan support from this 
Committee.
    For example, Committee Members on both sides of the aisle 
have steadily supported full funding for U.S. contributions to 
the ITER project, a key fusion energy experiment funded through 
the Office of Science. With steep cuts to the Fusion program, 
the President's budget proposes just $108 million in U.S. 
contributions for this project, which is only one third of what 
is required in FY 2020 to maintain our participation in this 
world-leading international research collaboration. Fusion 
could be the next great energy frontier--with the potential to 
produce near-limitless, zero emission power for centuries.
    We can't afford to cut investments in this critical 
science.
    However, by comparison, the FY 2020 budget request includes 
stable funding for Advanced Scientific Computing Research 
(ASCR), one of the Office of Science's top priority programs. 
ASCR supports the Exascale Computing Project and its mission 
goal of completing of the world's first exascale computing 
system.
    Exascale systems can perform one billion, billion 
calculations per second and developing one is critical to 
enabling scientific discovery, strengthening national security, 
and promoting U.S. industrial competitiveness. Thanks to DOE's 
targeted investments in ASCR, the United States now hosts the 
top two fastest supercomputers in the world--Summit at Oak 
Ridge National Laboratory, and Sierra at Lawrence Livermore 
National Laboratory--and the Department is on track to reach 
exascale by 2021. As other countries like China race to develop 
exascale systems of their own, DOE's continued strong support 
of advanced computing is essential to maintain U.S. leadership 
in this field.
    In order to support innovation in next-generation science, 
DOE must also invest in research infrastructure and in cross-
cutting research initiatives with other Federal agencies. This 
includes initiatives in critical research areas like quantum 
information science, big data and artificial intelligence, and 
nuclear science, as well as key investments in our nation's 
light sources and neutron sources.
    I want to thank Secretary Perry for his testimony today, 
and for outlining his plans to execute DOE's mission objectives 
in the upcoming fiscal year and beyond for this Committee. 
Maintaining U.S. leadership in science will require a shared 
commitment to prioritize DOE research and support the next 
generation of energy technology.

     Chairwoman Johnson. At this time, I'd like to introduce 
our witness. The Honorable Rick Perry currently serves as the 
United States 14th Secretary of Energy. He oversees the 
Department of Energy, which is tasked with advancing national, 
economic, and energy security of the United States, promoting 
scientific and technological innovation in support of that 
mission, and ensuring the environmental cleanup in the national 
nuclear weapons complex.
     Prior to his current Cabinet post, Mr. Perry was elected 
Lieutenant Governor of Texas in 1998 and later served as 
Governor of Texas from 2000 to 2015. He was the longest-serving 
Governor in Texas history.
     Not to tell my age, but I've known this gentleman since he 
was a young man serving in Texas. I'm going to ask our 
Secretary to make his opening statements, and then we'll 
proceed with questions. Mr. Perry.

             TESTIMONY OF THE HONORABLE RICK PERRY,

                SECRETARY, DEPARTMENT OF ENERGY

     Secretary Perry. Madam Chairwoman, thank you for your kind 
remarks. Our years in grade school together were great. And 
we're just out of college, for the record. So thank you.
     And, Ranking Member Weber, it's my great pleasure to be in 
front of you in your current role, and thank you for your 
friendship and your wise counsel through the years, as I can 
say to a number of the Members that are up there.
     Governor Crist, it's always a pleasure to be in front of a 
colleague, and as we were making remarks behind the door there 
that life after Governor is good, and so thank you for your 
friendship and assistance through the years.
     It's a pleasure to be in front of each of you Members 
today and to share with you my observations about the 
President's 2020 budget and his budget request, as Ranking 
Member Weber so succinctly described it, appropriately, for the 
Department of Energy.
     If I may, to further highlight some of the great work that 
we're doing, there's just a very short video here that I'd like 
to ask you to enjoy with me.
     [Video shown.]
     Secretary Perry. And it actually has volume, too. It's 
kind of a new thing we're working on over at the agency to get 
some volume with our video.
     Basically, what I'm saying here is that we do some pretty 
good--for those of you that aren't awake----
     [Video shown.]
     Secretary Perry. Thank you for the privilege to be able to 
show that to you. As you can see, it is a really exciting time 
to be at the helm of DOE.
     And I appeared before this Committee last year, and I 
committed to fulfill a number of goals, including protecting 
our critical energy infrastructure from cyber threats; 
investing in early stage, cutting-edge research and 
development; and advancing our leadership in exascale in 
quantum computing. And I'm proud to report to you that DOE has 
made progress in every one of those areas.
     This past fall, I fulfilled a commitment to visit all 17 
of our national labs, and I got to witness firsthand, as you 
saw in that video, the brilliant work that those incredible 
facilities are engaged in. You'll have the opportunity to see 
examples at National Lab Day July the 24th. It's going to be 
right up here in your backyard on the Hill, and I hope you will 
consider coming by.
     Our national labs are homes to, as Randy shared with you, 
the two fastest supercomputers in the world, 5 of the 10 
fastest supercomputers in the world, and we've got next-
generation if you will exascale computers that are coming 
online in the very near future to accelerate America's capacity 
and capabilities in the artificial intelligence (AI) world. 
This is really important. It's important in a host of different 
reasons, which we'll expound on here during the course of this 
committee meeting.
     But I am completely and absolutely convinced the impact 
that this is going to have on the world that we live in, not 
just in the area of energy as we commonly think about it, but a 
broad array of science-oriented, science-centric areas.
     Unfortunately, the success of our national labs has also 
made them a target, a target for people and nations seeking to 
steal America's ingenuity. And in response, we're requiring DOE 
employees to fully disclose their involvement in foreign 
government talent recruitment programs that are sponsored by 
countries of risk. And you know all who all those are, Iran and 
China and Russia, North Korea.
     And we've banned our researchers from joining Chinese 
talent recruitment programs. I happen to think these are 
commonsense approaches. These are things that we should be 
doing. And they will better protect our national security and 
advance research and technology.
     So in the coming weeks and months I look forward to 
working with all of you at the Department as we work on these 
programs that we talked about, our shared programs, Dr. Babin, 
and we--I thank you, Madam Chair, for your kindness, your 
hospitality, and for your longtime friendship. Thank you.
     [The prepared statement of Secretary Perry follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     Chairwoman Johnson. Thank you very much.
     At this point, we'll begin our first round of questions, 
and the Chair recognizes herself for the first round.
     Mr. Secretary, do you stand by the proposal of the 
elimination of ARPA-E? I've heard you make some very positive 
statements, but we are concerned about the future of ARPA-E. 
It's been such a positive program, and our Appropriations 
Committee just recommended a fair amount of funding.
     Secretary Perry. That's right.
     Chairwoman Johnson. Give us a little bit of how you stand 
on ARPA-E.
     Secretary Perry. Madam Chair, I'm going to give you a 
backwards look, and then I'm going to give you a forward look 
if I may. My backwards look is to my previous position of being 
the Governor of the State of Texas and the work that we did 
there while Randy was a member of the Texas legislature. We 
worked together on some really exciting, successful public-
private partnerships, Texas Enterprise Fund, Texas Technology 
Fund, and those basically were mini-ARPA-E's if you will. If--a 
little different in some senses, but when you think about the 
cutting-edge technology that comes out of our national labs, 
for instance, the dollars that we expend in that arena, our 
desire to bring technology and then commercialize it, that's 
what ARPA-E from my perspective historically has been about.
     And I respect OMB's work in what they do, but I'll be real 
honest with you. I respect this Congress more. And I understand 
how the process works, and I think Ranking Member Weber was 
spot on when he reminded us that this is a starting point, and 
we recognize that.
     So going forward, just like I said in other Committee 
hearings previously, I respect this process, and I understand 
how this process works fairly well. And we're going to expend 
the dollars--and hopefully very wisely and thoughtfully and 
efficiently--that Congress appropriates.
     So as you all have historically said, we like ARPA-E, we 
want it to be run efficiently and effectively, be wise about 
it, but we hear the message here. Previous Congress sent a 
clear message about what they think ARPA-E needs to be. I hope 
you see a reflection of your desire for this program to go 
forward and to expend these dollars thoughtfully with the 
result of programs that are making for a better future for this 
country.
     Chairwoman Johnson. Well, thank you. Have you had a dialog 
with some stakeholders as to whether or not they would continue 
to invest in these programs without support, or has there been 
the opportunity for that dialog?
     Secretary Perry. Yes. Yes, Madam Chair, there has been 
that dialog with stakeholders. And, as a matter of fact, the 
timeliness of your question is succinct here today. DOE is 
going to be announcing our 2019 Technology Commercialization 
Fund Project selections. And there are 77 different projects, 
and they're going to be matched with funds from the private 
sector.
     As a matter fact, I think there's about seven of you on 
this Committee. Congressman Baird, your district is one of 
those that's going to be receiving some of that, and I think, 
Congressman Lamb and Perlmutter, Wexton, Tonko, McAdams, and 
Governor Crist, your district as well are all going to have 
funding for projects.
     And so to lengthen the answer just a little bit more, 
Madam Chair, those conversations are almost continual because 
of the work that's gone on at our national labs. The focus of 
the Department when it comes to--I'm a big believer both in a 
personal and professional way that public-private partnerships 
are very, very good for commercializing technology that is 
developed in our national labs.
     Chairwoman Johnson. Well, thank you very much. My time is 
expired. I'll now recognize Mr. Weber.
     Mr. Weber. Thank you, Madam Chair.
     And I'm glad to hear, Mr. Secretary, that you all are 
going to have National Lab Day on July 24th in honor of Charlie 
Crist's birthday, so happy birthday in advance, Governor.
     Secretary Perry. That's exactly why I picked that day, 
Governor.
     Mr. Weber. So I just didn't realize he had that kind of 
pull, you know?
     Secretary Perry, as you know, the President signed my bill 
the nuclear iteration--Nuclear Energy Innovation Capabilities 
Act into law last fall. And while I've been pleased to see the 
Department take some important steps in implementing this 
legislation such as announcing the mission need for the 
versatile fast test reactor, which is authorized in the bill, 
we really heard kind of little from the Department about the 
rest of the bill.
     So talking about the budget specifically, I was kind of 
disappointed to see the fiscal year 2020 budget request did not 
include funding for the National Reactor Innovation Center, 
which was included in the budget request. And just by way of 
notes, this innovation center is critical to the development of 
advanced reactors and will allow those private companies you 
were talking about to prove their reactor designs without 
having to endure the lengthy NRC (Nuclear Regulatory 
Commission) licensing process. And it's also my understanding 
that the Department of Defense, DOD, is interested in this 
funding and a reactor prototype at one of the national labs 
through this program. So I guess my question to you is how do 
we not get that in the budget? What's your thoughts on that 
process?
     Secretary Perry. One of the things I'm going to do if I 
may, Madam Chair, is I'm going to ask for Under Secretary 
Dabbar to share just a little bit of his observation here 
because I think this is really important. He's head of our 
science shop. All the--all of the--our national labs are 
underneath him and what have you.
     But, Randy, before--or, excuse me, Congressman Weber, 
before we do that, I just want to say that we think some of the 
most exciting research that's being done at the Department is 
dealing with small modular reactors (SMRs), the advanced 
reactors that are out there. We've got two private-sector 
companies that we're working incredibly close with. We've got a 
piece of line land on Idaho National Lab property where we're 
going to be, you know, building this out and seeing some real 
progress made on this. And we think that not only from a 
commercialization aspect of being able to deliver emissions-
free power, it's also going to be a very, very important tool 
to nonproliferation with these small modular reactors.
     So, if I may, could I get Paul Dabbar to share----
     Mr. Weber. Sure. If you'd be very quick because I do have 
a question for----
     Secretary Perry. Yes, sir. All right.
     Mr. Dabbar. So the versatile test reactor, which is part 
of the legislation we'd like to thank this Committee for 
passing, we're moving down the process to identify where to 
actually place it, at which of the national labs. As you can 
probably guess, we have more than one interest from a national 
lab Director about where to place it. But we're in the middle 
of that process. And obviously, we're looking forward to 
placing it in one of the labs. It has a long history which we 
have several of, of nuclear power. Yes, good. Thank you.
     Mr. Weber. OK. Well, I'll take that to mean that you 
really don't know what the cost is going to be, so how much to 
put in the budget, but we do need to focus on that. Let me go 
to question two.
     Fiscal year 2020 budget request includes $161 million cut 
to the Fusion Energy Sciences program, and, as a result, 
proposes $108 million in the U.S. contributions to the ITER 
project, which is the world-leading international research 
collaboration in fusion energy that has in the past received 
strong and continued bipartisan support from this very 
committee.
     This funding level is just over 1/3 of what is required in 
fiscal year 2020 to maintain the U.S. commitment to participate 
in ITER. So my question is is the Department recommending that 
we withdraw from ITER because--it's hard to square this fusion 
budget which would make the U.S. responsible for delaying the 
project and increasing the overall cost with maintaining our 
international commitment. Are we thinking of withdrawing from 
the ITER project? I mean, how can we expect other countries to 
make investments in the U.S.-hosted international projects 
like, for example, the Long-Baseline Neutrino Facility if we 
don't keep this--our commitments overseas?
     Secretary Perry. Yes, sir, Congressman, you know the 
history of this, and it really got sideways back when I showed 
up here in the spring of 2017. ITER was in pretty dire straits 
frankly. It had poor management. There was not the type of 
results that I think any of us were comfortable with.
     Subsequently, they have a new Executive Director in there 
that's doing some really good work. We have regained our 
confidence. I went and was on the ground there to see, to talk, 
to interact with the folks there in the south of France where 
this facility is. We have become convinced that they are making 
the right kind of progress. We're doing more in-kind 
contribution on the solenoid that's coming out of General 
Atomics in California rather than direct appropriations. But 
with that said, the $107 million request for 2020 is sufficient 
to maintain the progress on some of the highest-priority U.S. 
hardware contributions that we're making.
     So to answer your question specifically, we are 
recommending that we continue to be engaged with this, 
cautiously optimistic that when we roll back in here for the 
next budget cycle that we'll be able to even have better 
evidence of progress that they're making.
     Mr. Weber. Well, I appreciate that, Mr. Secretary. It's no 
surprise to me that you focused on it and were already on top 
of it, so I appreciate it, but I just--again, I think it's 
important, and so I think we want to continue that commitment 
as much as we possibly can.
     I'm over my time, Madam Chair. Thank you. I yield back. 
Thank you, Mr. Secretary, for being here.
     Chairwoman Johnson. Thank you very much. Ms. Lofgren.
     Ms. Lofgren. Thank you. And thank you, Mr. Secretary, for 
being here.
     Following up on Congressman Weber's focus on fusion 
energy, I wanted to mention the National Ignition Facility at 
the Lawrence Livermore National Lab, which is the world's 
largest laser run by the National Nuclear Security 
Administration (NNSA). It's the premier facility within the 
United States for high energy density and inertial confinement 
fusion research.
     I was concerned that the budget from the Administration 
was low. However, the House Administration Committee has 
provided level funding. I just would throw this caution out. 
When we lowball in the budget, it does have an impact on morale 
among the scientists even though--this is not the first time 
this has happened. It happened under the prior Administration 
as well where the request is low. Congress, you know, gets 
level funding, but it has an impact that's not positive on the 
morale of the workforce, so just for the future.
     I'd just like to ask about the Energy Research and 
Innovation Act, which the President signed last fall. There's a 
provision in there which directs you to establish and support 
an R&D program in inertial fusion for energy applications. 
There was a clear recommendation in the National Academies' 
report which highlighted several promising research areas to 
explore with the enormous clean energy potential of inertial 
fusion energy concepts. These are areas that the weapons 
Stockpile Stewardship Program would never pursue because it's 
really not their bailiwick, but the research needs are quite 
different.
     What is the status of the Department's implementation of 
this now statutory direction to establish and support an 
inertial fusion energy research and development program?
     Secretary Perry. Madam Chair, if I could, I'd like to 
have, again, Paul Dabbar kind of share with you a little more 
detail on that specific----
     Ms. Lofgren. Thank you. Thank you.
     Secretary Perry. Paul?
     Mr. Dabbar. So, Congresswoman, we are very much focused on 
seeing commercial fusion move forward. We've been very 
enthusiastic about the private sector also working with us, 
increasingly so, including Congressman Bera's--where he went to 
university at Irvine, which is Tri Alpha Energy. In inertial 
confinement there's a company that came out of technology from 
Livermore and from Los Alamos called General Fusion, which is 
actually approaching this from an inertial-confinement point of 
view. We've accelerated our work with the private sector, 
including with inertial confinement, that inertial confinement 
company, and we look forward to advancing that technology, as 
well as others.
     Ms. Lofgren. So the Department's R&D program is basically 
just private sector?
     Mr. Dabbar. No. No, Congresswoman. Most of it is the 
science area, but what we've seen is that there has been a 
growth in the private sector also, so----
     Ms. Lofgren. Which is good.
     Mr. Dabbar. Yes. And so--and they've brought--there's over 
$1 billion worth of private-sector money which has been raised, 
and one of them is in inertial confinement. And we are engaged 
with them in a number of programs to engage with them, amongst 
others.
     Ms. Lofgren. I wonder if I could ask this. Could you 
follow up this hearing with a more detailed, in writing, report 
on kind of the status of implementing this statute and where we 
are, next steps, and the like? This is enormously important to 
the Committee on both sides of the aisle and really to our 
country and the world. I would very much appreciate that if you 
could do that.
     Secretary Perry. Ms. Lofgren, I--let me just add to that 
that I certainly--I don't think I am out of line here inviting 
you to go take a look at one or both of the private-sector 
efforts that are going on. TAE, which is down in the--is that 
the Inland Empire?
     Mr. Bera. It's----
     Secretary Perry. Is that right, Dr. Bera? Is that----
     Mr. Bera. It's in Orange County.
     Secretary Perry. In Orange County. Yes, it's in Irvine. 
And----
     Ms. Lofgren. It's not inertial, though.
     Secretary Perry. Yes.
     Ms. Lofgren. I mean, it's interesting, but----
     Secretary Perry. It--yes. So there's just some fascinating 
work. I visited there down at General Atomics and what they're 
doing in that side of it.
     And then at Idaho National Lab, some of the work that's 
going on there, and I think you're next door to Lawrence 
Livermore----
     Ms. Lofgren. Correct.
     Secretary Perry [continuing]. And with the--with that 
light source there. It's--there are some--it's down the road, 
we understand that, but investments that we're making today we 
may look back on 20 years ago--20 years from now and say well 
done.
     Ms. Lofgren. I'll just note, thank you for your enthusiasm 
for the national labs. It's really important.
     Secretary Perry. Yes.
     Ms. Lofgren. And I think if we put the kind of focus on 
this area of research that we should, we'll get there a lot 
sooner. We've never adequately funded the science on it. And I 
thank you, Mr. Secretary. And my time is expired.
     Chairwoman Johnson. Thank you very much. Mr. Posey.
     Mr. Posey. Thank you, Madam Chair, for holding this 
hearing, and thank you for appearing, Mr. Secretary. Over here.
     About half the people in this room are old enough to 
remember the fuel crisis, the energy crisis in 1973 where 
everybody in the world that--everybody in this country that 
wanted to get gas had to go get in line on an odd number of tag 
days in Florida and wait for hours to get a half a tank of gas, 
just brought everything to a screeching stop. And in response 
to which Congress passed and President Carter signed the act in 
1977 which created the Department of Energy to make sure we 
would never, ever again be victims of such an energy crisis.
     And I commend you for reaching the current point that 
we're at now, an unprecedented level of energy independence, so 
thank you for a job well done, you and the Administration.
     I was very happy to see your references to space in your 
video presentation. Ultimately, the exploration of space is 
about the survival of the human species and exploring the 
unknown to expand our knowledge.
     Last year, the House Science, Space, and Technology 
Committee worked together to pass H.R. 589, a bipartisan 
Department of Energy reauthorization bill, which is now law. 
And, as you know, part of the legislation directs the 
Department to carry out a program on low-dose radiation 
research within the Office of Science, which is going to be 
necessary to better understand for the future of human 
spaceflight.
     And so I just wondered if you could give us a little bit 
of an update on the status of the plan to implement the program 
and, if not, you can mail it to me.
     Secretary Perry. Thank you, Congressman Posey. That focus 
on the partnering between DOE and other agencies of government, 
in this case NASA, is--it's one of the more fascinating things 
that we do, particularly developing the ways to propel us to 
deep space. There's going to be work that's done, and small 
modular reactors may be part of the tie-in here to the 
propulsion on some of these.
     But the other side of it is there's a program that's--I 
think it's called KRUSTY (Kilowatt Reactor Using Stirling 
Technology), and I actually--I got to see the work that they 
are doing on it at the Nevada test site a few months back. And 
KRUSTY is an acronym for Kilowatt Reactor Using Stirling 
Technology. And Los Alamos is the--is actually where the work's 
being done. They were just--there were showing it to us out at 
the test site in Nevada. And it's--the--they're partnering--
it's just like you see public-private partnerships and you see 
NASA (National Aeronautics and Space Administration), DOE, DOD 
particularly through DARPA (Defense Advanced Research Projects 
Agency) working together on some of these projects. The 
national labs partner up often, so Los Alamos and the Y-12 
National Security Complex, and then the national security--I 
always call it the Nevada test site. That's not the proper 
name, but the Nevada national security site are where they're 
building and testing these full-scale flight prototypes for 
nuclear reactor.
     And by the--we're going to get back into space. We're 
going to go very far into space, and it's going to be driven by 
funding that you all are making available through these 
national labs, so thank you.
     Mr. Posey. Thank you, Madam Chair. I yield back.
     Chairwoman Johnson. Thank you very much. Mr. Bera.
     Mr. Bera. Thank you, Madam Chairwoman.
     Secretary Perry, thank you for being here. I just wanted 
to follow up on a conversation we had a year ago regarding the 
budget hearing and the 123 nuclear agreement with Saudi Arabia. 
You know, at that time there were negotiations taking place, 
and I think in your comments there was some hesitation of 
moving forward without that 123 Agreement. And, you know, just 
for the record, the Atomic Energy Act of 1954 requires a 
peaceful nuclear cooperation agreement, which is the 123 
Agreement for export of nuclear commodities.
     I know this past March, earlier this year, you approved 
the Part 810 authorizations for transfer of certain nuclear 
energy technologies to Saudi Arabia. And while that Part 810 
authorization doesn't require the 123 Agreement to be in place, 
part of the approval process requires us to consider whether 
the transfer of these technologies are in the best interest of 
the United States, which is what the 123 Agreement typically 
symbolizes.
     And let me put it in context. My other committee is the 
House Foreign Affairs Committee and obviously we are very 
concerned about the tensions in the region. You know, we've 
obviously pulled out of the Iran nuclear deal. In recent days, 
the Iranian regime has talked about increasing their nuclear 
production and potentially restarting their nuclear program.
     Last year, the Saudi Crown Prince on ``60 Minutes'' 
suggested that if Iran were to pursue nuclear weapons, they 
would certainly be within their right to pursue nuclear weapons 
as well. And I think all of the Members of this Committee, 
certainly when we're thinking about the United States' 
interest, would be very concerned about seeing a nuclear arms 
race take off in the Middle East in one of the most unstable 
parts of the world.
     So both in my role as Chairman of the Subcommittee on 
Oversight for Foreign Affairs, as well as my role as Vice Chair 
on this Committee, could you give us an update on where we are 
with Saudi nuclear sales?
     Secretary Perry. Dr. Bera, thank you. I think you very 
succinctly, for all of us, described why it's so important for 
the United States to continue to be engaged in that process. If 
you really care about nonproliferation, if you care about peace 
in the Middle East if you will, and there's--in the broadest 
context, the United States being involved, being engaged, 
continuing to have a discussion and a negotiation going on not 
just with Saudi Arabia but with all the folks that we can bring 
to the table on this, wherever they may be.
     I think it's important from a--just in edification 
process, the--there's been some misinformation out there from 
my perspective on the Part 810 and what--just what does that 
mean. And this isn't some blessing that we're, you know, 
basically saying, you know, here's the keys to the kingdom so 
to speak and, you know, take this information, do as you will 
with it and what have you. And 810--signing off on a Part 810 
simply says it's OK to go have a conversation. It's OK to--you 
know, to start this conversation with a U.S. technology company 
dealing with civil nuclear and your--and you don't necessarily 
have to have a 123 agreement in place to do that. Thailand is a 
great example of a country that we have signed Part 810s with.
     And then there was some other misinformation out there 
about this information somehow or another is secret, and it's 
not. We have--now, some of it is proprietary. And previous 
Administrations have made that proprietary information, you 
know, off the books so to speak, appropriately. But we tried to 
be--you know, we've got a reading room where the folks can come 
and take a look at it, and we're working with Members of 
Congress that are really interested in this and want to see 
what's going on as well.
     Mr. Bera. Great. Thank you.
     Secretary Perry. Yes.
     Mr. Bera. And I would just emphasize, you know, again, 
given the tensions in the region, this is a complicated issue, 
I would still push for that 123 Agreement----
     Secretary Perry. Absolutely.
     Mr. Bera [continuing]. And I understand there's the 
competing interests of the Russians and the Chinese and the 
Saudis could pivot and go in that direction, but if they're 
really serious about this and they want to be a serious player 
in the world, we've got the best technology, the safest 
technology----
     Secretary Perry. Yes.
     Mr. Bera [continuing]. And the best companies. They 
shouldn't go in that direction, so----
     Secretary Perry. And I made the statement to the 
leadership of the kingdom that if you want to send a message to 
the world that you're really serious and want to be adult 
members of the world community, you need to sign a very strong 
123 agreement with the United States.
     Mr. Bera. Great, thank you. I yield back.
     Chairwoman Johnson. Thank you very much. Mr. Biggs.
     Mr. Biggs. Thank you, Chairwoman Johnson and Ranking 
Member Lucas. I appreciate conducting the hearing today even 
though it's Randy Weber sitting in, so that's good.
     Mr. Weber. Will the gentleman yield?
     Mr. Biggs. No, I will not yield to you, sir.
     I thank you, Secretary Perry, for joining us today. And I 
congratulate you, Secretary Perry, on the excellent job that 
you are doing at the Department of Energy. And I think it's 
amazing to see what a deregulatory agenda, coupled with pro-
growth policies, can do to benefit our economy and national 
security at the same time.
     I'm also encouraged by the Administration's commitment to 
a long-term strategy for viable and competitive nuclear energy 
and to developing the necessary infrastructure to meet our 
Nation's energy needs. Nuclear energy is particularly important 
to my home State of Arizona where nearly 30 percent of the 
State's electricity comes from nuclear energy. The Arizona 
Public Service, the largest electricity company in the State, 
serves 2.7 million people and operates the Palo Verde 
generating station, which produces more than 70 percent of the 
State's clean energy. The Palo Verde nuclear power plant is 
America's largest source of clean air energy, providing over 
2,500 jobs and generates an economic impact of more than $2 
billion, all while emitting no greenhouse gases.
     Secretary Perry, you visited Arizona in February where you 
stated that President Trump is focused on having a diverse 
energy portfolio that includes nuclear energy, and we're glad 
that you came out. I'm personally glad that you came to Arizona 
to see what we're doing there.
     You also stated that America needs to continue to be 
engaged in the development of the next generation of nuclear 
power. And so, Mr. Secretary, I'm wondering if you would please 
elaborate on the Department's efforts related to the 
development of the next generation of nuclear power.
     Secretary Perry. Mr. Biggs, thank you. The advanced 
reactor technology program is what you're making reference to, 
and we're doing the R&D on that as we speak to address the 
long-term technical barriers that we have. And SMRs is part of 
this, and I think from my perspective increased funding for 
microreactors--and microreactors, this is particularly of 
interest to the DOD as they--as we live in this world--and I 
know we're going to talk about resiliency at some point in time 
today of the grid and what's going on, but, Mr. Waltz, from a 
military standpoint, having these microreactors, even smaller 
than our SMRs, to develop the power in some of our military 
operations is going to be tantamount to our ability to perform 
the national security mission that we have.
     We're continuing--and I want to talk with some specificity 
here. We, the DOE, is continuing to support the development of 
NuScale Power. That's their efforts to complete the licensing 
process and begin to commercialize the design and build 
associated with the supply chain that they're going to need, 
the commercial deployment of those reactors. And that's 
happening at the Idaho National Lab outside Idaho Falls, and 
2026 is the projected timeframe on that.
     So we know--look, the key for us is we're going to have to 
have lower capital costs to build these nuclear plants. I mean, 
that's the--we all recognize that, what--the challenges that 
the civil nuclear program has got, reducing the schedule times, 
the costs that go into building those. We need to be focused on 
the supply chain, keeping it in the United States and the 
components that are fabricated by U.S. companies for this and, 
again, getting back to--when we're able to do that, Madam 
Chair, we're going to be able to send the message that, No. 1, 
our energy supply is going to be harder to disrupt, so whether 
it's a cyber attack, whether it's a natural disaster, all of 
that is going to be directly affected by these advanced 
reactors and the development of those----
     Mr. Biggs. So, Mr. Secretary, with regard to that, you 
know, we've talked about private enterprise and their role in 
this. How do you incentivize private--the private sector to 
participate in this and accelerate the science with this?
     Secretary Perry. Yes, well, I think the fastest way you 
incentivize the private sector is for government to get out of 
the way from a regulatory standpoint, from, you know, a cost 
standpoint, so both--and I don't want to--I don't want anybody 
to walk away thinking that I have left somehow my understanding 
of how States function. States have to be very engaged in this 
process as well and State governments not be an impediment to 
the development of these technologies as well, for that matter, 
States not be impediments to the development of an all-of-the-
above energy portfolio for this country.
     So I would suggest to you one of the best ways that we can 
send a message that we want you to invest in this is to make 
sure that--either by permitting or regulatory fiat we create 
more of a hurdle for these companies to be able to bring their 
product to the market.
     Mr. Biggs. Thank you, Mr. Secretary. Thank you, Madam 
Chair.
     Chairwoman Johnson. Thank you very much. Ms. Bonamici.
     Ms. Bonamici. Thank you to the Chairwoman, Ranking Member. 
And thank you, Secretary Perry, for being here today.
     Last year, I asked you about exascale and quantum 
computing, and today, I'd like to start my questions on the 
existential threat of climate change and the Department's 
efforts to accelerate our transition to clean energy. Secretary 
Perry, the Fourth National Climate Assessment makes clear that 
greenhouse gas emissions from human activities are the most 
substantial factor in global warming over the past six decades. 
The Department of Energy is one of the 13 Federal agencies in 
the U.S. Global Change Research Program that contributed to the 
assessment.
     So, Secretary Perry, did the Department of Energy sign off 
on the findings of the Fourth National Climate Assessment? I'm 
going to make it easy. This is a yes or no question because I 
want to----
     Secretary Perry. Yes.
     Ms. Bonamici [continuing]. Get to several questions. Did 
it? OK. And do you agree that the National Climate Assessment 
is the result of collaborative peer-reviewed effort across 
Federal agencies compiled by the nation's top scientists? 
Again, that's yes or no. Do you agree that it's----
     Secretary Perry. Yes.
     Ms. Bonamici. OK. And according to the assessment, fossil 
fuel combustion accounts for 77 percent of our nation's total 
greenhouse gas emissions. Do you agree with this finding in the 
assessment?
     Secretary Perry. I--Senator, that one I've gone to the 
point of--I know you're reading--I mean, you're reading a 
technical report, and if that's what the technical report says, 
I'm--here's what I will share with you, that the climate's 
changing, man's having an impact, and, as I've stated before, 
you know, I welcome a thoughtful conversation with anyone on 
how we can cleanup the environment, you know, no matter which 
side of the aisle you may be on here.
     What we're focused on at the Department is coming up with 
new innovation, new technology that will help us address this 
issue of the climate----
     Ms. Bonamici. I appreciate that. Mr. Secretary, I have 
some more questions, and I'm going to ask you about that. So 
the assessment also identified that without a rapid 
decarbonization of the world's energy systems over the next few 
decades, it is unlikely that we'll be able to reach the 2 
degrees Celsius warming target that was set in the Paris 
Climate Accord. Do you agree with that finding in the 
assessment as well?
     Secretary Perry. Here's what I'd like to do. I know you 
got a lot of questions you want to ask me that are yes or no. 
But I'd really like to get Paul Dabbar to share with you what 
Fatih Birol, who's the head of the International Energy Agency 
said within the last 30 days about the decarbonization of the 
planet.
     Ms. Bonamici. Well, I'd like you to submit that for the 
record because----
     Secretary Perry. OK. Great.
     Ms. Bonamici [continuing]. This is your time here today. 
So also, Mr. Secretary, last year, the Natural Resources 
Defense Council sent a letter to this Committee outlining the 
failure of the Department as Office of Energy Efficiency and 
Renewable Energy, or EERE, to spend the funds that were 
appropriated by Congress in fiscal year 2018.
     So the President's fiscal year 2020 budget request 
outlines the Administration's plans to reprogram $353 million 
in prior-year balances from EERE to help pay for fiscal year 
2020 programs. The Impoundment Control Act requires the 
Administration to obligate funds when Congress appropriates 
money to the executive branch.
     And last year, this Committee learned through a GAO 
(Government Accountability Office) request from Chairwoman 
Johnson that the Administration violated the Impoundment 
Control Act in 2017 by withholding 1/3 of the budget for ARPA-
E. So you can understand why we're concerned about the same 
issue occurring at EERE. So the Impoundment Control Act does 
allow agencies to withhold obligation of funds when a deferral 
or rescission is requested by the President and approved by 
Congress.
     So, Secretary Perry, are you aware of any deferrals or 
rescissions that Congress has approved for fiscal year 2018 or 
2019 funding for DOE programs?
     Secretary Perry. I am not.
     Ms. Bonamici. And how did the total number of funding 
opportunity announcements (FOAs) for EERE in '19 compare to the 
number of announcements issued in fiscal year 2018 to date?
     Secretary Perry. Do want to take----
     Ms. Bonamici. And, Mr. Secretary, you're the witness here 
today; I'd like you to answer the question.
     Secretary Perry. Yes, well, I'm going to refer to my 
expert then if you don't mind, ma'am.
     Mr. Dabbar. Where--we issued all the FOAs for EERE, and 
they're in there in the middle of submittals and reviews right 
now for 2019.
     Ms. Bonamici. Mr. Secretary, will you recommit here today 
to distributing DOE's appropriated funds for 2019 and 2020 in 
accordance with congressional intent?
     Secretary Perry. Yes.
     Ms. Bonamici. I appreciate that. Thank you very much, 
Madam Chairwoman, and I yield back.
     Chairwoman Johnson. Thank you very much. Mr. Cloud.
     Mr. Cloud. Thank you, Secretary, for being here. It's good 
to see you.
     Secretary Perry. Yes.
     Mr. Cloud. It's great to have a Texan heading up the 
Department of Energy.
     Secretary Perry. Thank you.
     Mr. Cloud. I want to thank you, first of all, for your 
thoughtful written report. I found it personally refreshing 
actually that we had a comprehensive report that sought to 
recognize the security challenges facing us but--and recognize 
the breakthroughs that we need to make for advancement but also 
kept in mind that we are supposed to be, as the Chair said, 
responsible use of the taxpayer's dollar. And while we do want 
to make sure DOE employees' morale is high, I think we should 
also make sure that the taxpayers' morale is high, and with $22 
trillion hanging around their neck, I think most of us realize 
that their morale is not as high as it should be.
     I represent of course the 27th District of Texas, so, 
first of all, I want to thank you for the work in helping with 
the port of Corpus Christi. Seeing the first crude shipment 
come out of the United States in a while out of that port was 
really great for the United States as we're making this 
transition to an energy-dominant nation, which you've been so 
key in.
     I'm also home to the South Texas Project Electric 
Generating Station, and I know we're committed to America's 
leadership in nuclear energy to help deliver clean, reliable 
power to the people of Texas and across the country.
     Much of America's existing fleet of reactors is aging with 
many of the nuclear plants nearing the end of their 40-year 
license. The Department of Energy is researching ways to 
promote the longevity and safety of nuclear plants through its 
Light Water Reactor Sustainability (LWRS) Program. The program 
works with universities and companies like STP, South Texas 
Project, on research. Could you provide an update on the work 
being conducted through the LWRS program?
     Secretary Perry. Do you want--do you know which one that 
is? No?
     Mr. Cloud, if I could, let's take that one for the 
record----
     Mr. Cloud. OK. Yes.
     Secretary Perry [continuing]. And get you the proper 
information and give it to you and the rest of the Committee 
Members in writing.
     Mr. Cloud. I appreciate that.
     Secretary Perry. Yes, sir.
     Mr. Cloud. Your written report touched on rare-earth 
minerals and, you know, there's a lot of talk about alternative 
forms of energy, having an all-of-the-above approach. Could you 
discuss what DOE might be doing in terms of rare-earth 
minerals? I mean, we know China controls 70 percent of them, so 
as we look to alternative forms of energy, as we're becoming a 
dominant--energy-dominant nation that's finally independent in 
energy, we don't want to trade that for dependence on rare-
earth minerals.
     Also, of course, rare-earth minerals have, as your report 
mentions, extreme national security, military applications, and 
those sorts of things.
     Secretary Perry. And I think that's very succinct that 
we--I want to stop and draw a line right there and say that 
that's looking backwards, and some of the innovation and 
technology that's going on at the Department at this particular 
point in time may shed some light on that--dealing with rare-
earth minerals that are controlled by maybe some countries that 
don't necessarily have our best interest in mind may not be as 
big a challenge as what we thought it was 12 months ago. And 
part of that reason is because of the research that's going on 
at our national labs.
     And I'm going to again ask Paul to kind of share with you 
just--because he's fresh out of seeing some of this, and it has 
to do with battery storage. And the progress, Mrs. Fletcher, 
that's being made on battery storage is really fascinating. And 
I've always said that battery storage is the Holy Grail. If 
we're able to get to that point where we can use our 
renewables, solar and wind in particular, to power these 
batteries that have longtime storage--and what we're finding 
now is that the elements that are being used to create some of 
these batteries are not rare-earth minerals and--they're 
elements that we have right here in the United States, so we're 
going to be in control of our future substantially more on the 
battery storage.
     Paul, if you just kind of give them a little glimpse of 
what's going on here, and I think that's pretty exciting stuff.
     Mr. Dabbar. So a couple of examples, obviously the 
complexes to a large degree are a very large R&D business, and 
so in this particular area, for example, in batteries that are 
not lithium-ion, beyond lithium-ion batteries that not only 
have tremendous improvements in performance at 3 to 5 times but 
are made out of elements, as the Secretary said, that we don't 
have to source it from places that we have had more of a 
challenge.
     The second thing, as an example, that we did with the 
support of this Committee is the recycling battery announcement 
that we made it Argonne National Lab where we announced the 
first research for recycling batteries, so the materials that 
you are talking about that have to be potentially sourced from 
other places in the world, we're looking at with all these 
batteries being used in the economy now, how we could reuse 
those rather than needing to source that from other locations.
     Mr. Cloud. You mentioned on the electric grid, and I think 
in 2017 you produced--or the DOE I should say produced a report 
on listing recommendations that we should do to prepare for an 
EMP (electromagnetic pulse) attack. Do you know of any progress 
that's been made?
     Secretary Perry. Yes, sir, a substantial amount of it. In 
April of this year we--DOE issued a $35 million Cybersecurity 
for Energy Delivery Systems research sale--excuse me, research 
call to the federally funded research and development centers. 
And they're working exactly on what you're talking about there, 
the resiliency, the reliability of the Nation's energy 
infrastructure, and they're looking at a host of different ways 
to--you know, we actually stood up an office that we refer to 
as CESER (Cybersecurity, Energy Security, and Emergency 
Response) cybersecurity and the emergency response that's 
headed up, and so, again, thank you for the funding of that. I 
think it's very timely.
     And the previous that I talked about, this $35 million is 
going to be used for testing that can be used to verify and 
validate operational technology equipment and software. And 
there was also a funding opportunity announcement that was 
released in the month prior, in March, of--to establish a Cyber 
Manufacturing Institute, and that one's co-managed by our CESER 
office and EERE to mitigate cybersecurity threats.
     And so there is a--there's a lot of movement in that 
space. The DOE, our national labs, and our private sector 
partners are all engaged I think in a very constructive way to 
send the message to our citizens, to those that operate our 
electric and power systems that we're doing everything possible 
to protect them against both cyber threats, physical threats, 
and national--or natural disasters as well.
     And in Florida, you know, your--I think your Governor is 
about to do a--an announcement on infrastructure resiliency and 
what have you. You know, our two States, you know, we--from 
time to time we get more natural disasters than we'd really 
like to have. But how we build that infrastructure and how we 
develop that resiliency of the grid is very, very important not 
just because of the cyber side of this that, you know, 10 years 
ago that wasn't a problem. It is today.
     Chairwoman Johnson. Thank you very much. Mr. McNerney.
     Mr. McNerney. Well, I thank the Chair and thank the 
Secretary for coming today. And I do want to say I worked at 
Sandia National Laboratories in Albuquerque. I worked at the 
National Renewable Energy Laboratory (NREL) and I have--
Livermore Lab is right outside of my district. I'm well aware 
of the quality and quantity of labs, and I encourage you to 
support those labs as much as you possibly can.
     Secretary Perry, do you believe that research on climate 
science is needed, or do you think that the climate science is 
settled?
     Secretary Perry. I--well, I think we're continuing to add 
to the body of science that's out there, Mr. McNerney.
     Mr. McNerney. Do you think we need to continue to work on 
that? What makes the DOE labs uniquely qualified among the 
national science agencies to conduct research on climate?
     Secretary Perry. Well, partly because we've historically 
been engaged in it, so when you go back and look at the history 
of climate science, DOE and their scientists have been involved 
with it. There is a FOA out right now, Congressman, that is 
going to--it's a selection that DOE issued yesterday on climate 
modeling. And I think this is just another example of how DOE's 
role in the predictive modeling of what's going on in the 
environment, these severe storms that we're seeing now----
     Mr. McNerney. Secretary, I know you're not intentionally 
filibustering, but I----
     Secretary Perry. Yes. No, I'm just excited about the----
     Mr. McNerney. I am, too, but----
     Secretary Perry [continuing]. What's going on at DOE.
     Mr. McNerney [continuing]. And so I strongly urge you to 
continue to double down on climate research----
     Secretary Perry. Yes.
     Mr. McNerney [continuing]. Including climate intervention 
research because we're going to have to have those tools 
available.
     Secretary Perry, one way to make energy from renewable 
sources that are remote available to load centers across the 
country is to better connect them with the--what we call 
Interconnection Seams. The National Renewable Energy Laboratory 
has completed a study on this. However, the Committee staff has 
informed me that the release of the report that contains 
findings from this study has been delayed without explanation, 
and the authors have been told not to discuss it publicly. Are 
you aware that the limits have been placed on the authors in 
discussing results of this study publicly and whether these 
limits remain in place today?
     Secretary Perry. I'm not.
     Mr. McNerney. OK. So will you make a commitment to make 
this report publicly available?
     Secretary Perry. Yes, sir. We'll circle back and find out 
where that originated from and make it right.
     Mr. McNerney. Thank you, Secretary. I appreciate that.
     In April of 2018 the DOE canceled a $46 million funding 
opportunity announcement on solar R&D just days before the 
winners were to be announced. Can you or anyone on your staff 
explain why that was pulled at the last minute?
     Secretary Perry. We'll go research it, sir, and get back 
to you.
     Mr. McNerney. I appreciate that. And I appreciate also 
your comments on artificial intelligence. Mr. Olson and I are 
Co-Chairs of the Artificial Intelligence Caucus, and we're 
going to continue to pursue that subject with vigor. And I know 
the national labs have a lot to offer on that, so again I urge 
you to keep those labs well-funded and keep the morale high at 
those labs----
     Secretary Perry. Yes, sir.
     Mr. McNerney [continuing]. By not threatening their 
funding year after year.
     Secretary Perry. Yes, sir.
     Mr. McNerney. And with that, I'm going to yield back.
     Secretary Perry. Thank you.
     Mr. McNerney. I'm going to yield back the three minutes 
that the prior speaker took.
     Chairwoman Johnson. Thank you very much. Mr. Olson.
     Mr. Olson. I thank the Chair. And howdy, Secretary Perry.
     Secretary Perry. Don't go over your time, Pete.
     Mr. Olson. Never my intention. I want to start off, sir, 
with something that's very important to Fort Bend County, a 
town called Needville, Texas. I want to give you a personal 
invitation from a young Texas lady we both know and admire. Her 
name is Katie Vacek.
     Secretary Perry. Yes.
     Mr. Olson. You remember you met her at President's--
Trump's first speech before Congress.
     Secretary Perry. Yes.
     Mr. Olson. She fell out of a live oak tree, broke her 
spine, has not walked for 3 years. As you can see, now, she's a 
fellow Aggie----
     Secretary Perry. Yes.
     Mr. Olson [continuing]. Proud Aggie, and she wants to 
thank you personally for meeting with her and inspiring her to 
get moving forward and going to College Station. So on her 
behalf, maybe find some time to come down to Needville, Texas. 
The Jay Cafe had the best chicken-fried steak and pecan pie in 
all of Texas, and maybe pop over to the Petra Nova power plant 
right across the way from Needville. So if you have some time, 
come down. We'd love to have you come down.
     Secretary Perry. You don't even have to use the extra bait 
of chicken-fried steak to get me there.
     Mr. Olson. Thank you. Now, I have a question that's very 
important to my hometown of Sugarland, Texas. It involves the 
NNSA. As you know, the NNSA picks up some nuclear waste that's 
been used by industry and then disposes of it. They send it out 
to a site called the Waste Isolation Pilot Plant, the WIPP. 
Radioactive americium-241 is needed for safe drilling. This is 
one of the nuclear waste. It is a known carcinogen. Usually 
what happens, NNSA picks it up, they send it off for safe 
storage somewhere in America, but there's a very small amount 
of that mineral that is picked up by NNSA but can't be kept 
here because it came from foreign sources originally. It's an 
identical fuel, identical. We can't dispose of it because it 
came from another country. And so we have these sites all 
across our country now, right now sprinkled with this 
radioactive waste. One site, Secretary Perry is half a mile 
from my son's high school Fort Bend Christian.
     In 2015, they had a small release of americium and cesium-
137. Workers took that home on their clothes. I know you'd like 
to change the law to make sure we dispose of this carcinogen 
without regard to where it came from. So are you aware of this, 
and how can we help you to make this commonsense dispose, 
dispose, dispose and not delay?
     Secretary Perry. Yes, sir. Congressman Olson, we are 
familiar with this, and what I--I apologize for turning my back 
to you and asking a question but--because I wanted to make sure 
that I was correct in the assumption that I was making that 
this is going to require a statutory change in which you just 
mentioned, and we will assist you in any way we can from the 
standpoint of using science at the labs or what have you to 
back up because, I agree with you that these types of materials 
do need to be put in appropriate disposal places.
     And so the idea that just because it was produced in a 
foreign country versus the exact same element that is produced 
at a national lab's reactor for these isotopes--and there's a 
host of these isotopes that we use in medical and obviously for 
the oil and gas industry. But we agree that the statute needs 
to be changed because it clearly--I think it's the old land-use 
act----
     Mr. Olson. Yes.
     Secretary Perry [continuing]. That prohibits any foreign-
produced elements of--being placed in--like the WIPP.
     Mr. Olson. Yes.
     Secretary Perry. So we would support your effort there. 
Anything we can do from a scientific standpoint to back that 
up, consider it available.
     Mr. Olson. It sounds like I have to call the ball, three 
down and cleared to land.
     Secretary Perry. Yes, sir.
     Mr. Olson. This is our job, not your job.
     Secretary Perry. Yes, sir.
     Mr. Olson. We're on that, sir. Thank you so much.
     A final question very briefly is about AI. As Mr. McNerney 
mentioned, we are co-chairs of the House AI Caucus. And your 
video was awesome. It shows the potential future about AI. Can 
you discuss briefly AI's potential for protecting our grid, 
protecting our pipelines, protecting our national labs? I mean, 
this is the future.
     Secretary Perry. Yes.
     Mr. Olson. And how are you guys doing that at DOE to make 
sure we utilize----
     Secretary Perry. Yes. I can't do it briefly because it's 
just such a broad--and--but I think at some time in the 
future--let me just leave it at this: I don't think there is a 
field that government is participating in that has any more 
potential to have a bigger impact on our citizens than 
artificial intelligence. The supercomputers that the Department 
operates, two of the fastest, five of the 10 fastest that we 
operate. And we are--our next-level computers are going to be 
operating--the exascale computer that's coming online at 
Argonne over in Mr. Foster's district in 2021 will do a billion 
billion transactions per second.
     Mr. Olson. Wow.
     Secretary Perry. That's the speed of which we are--that's 
anywhere between--I think it's up to 50 times faster than the 
computers we have today. I mean, it's fascinating work. So the 
AI, machine learning that's coming with that, we're going to 
find answers to challenges that we had no idea we were going to 
be able to address in the very near future.
     Mr. Olson. Thank you. Final request, beat Alabama. I yield 
back.
     Chairwoman Johnson. Thank you very much. Ms. Horn.
     Ms. Horn. Thank you, Madam Chairwoman.
     And, Mr. Secretary, thank you for being here.
     And I want to start off by framing this, that issues of 
workforce development, STEM, (science, technology, engineering, 
and mathematics) building our workforce of tomorrow, as well as 
the cutting-edge technology development are all very important 
both to me and to my district, and clearly energy is a big 
issue in Oklahoma, as it is across the country.
     So I want to start with ARPA-E and the funding because I 
think we have to have a conversation about the role of 
technology development. In its 10-year history, ARPA-E has 
funded high-risk, high-reward energy innovation projects that 
create cleaner energy and economic growth. And the important 
thing about that, of the 145 projects that have been supported 
by ARPA-E, they have attracted $2.9 billion in follow-on 
funding, follow-on private-sector funding, and 76 of these 
projects have gone on to form new companies.
     I say that to ask, in the proposed budget, it basically 
zeros out ARPA-E, and in the balance of public-private 
partnerships, we're looking at the cutting-edge development of 
government investment leading to follow-on actual companies and 
economic growth and development.
     So my question is what are you doing as the Secretary of 
Energy to communicate the clear successes that this program has 
had to the President and his budget team?
     Secretary Perry. Mostly sitting in front of Committees 
like this defending what ARPA-E has historically done, so--and 
I will continue to do that. I recognize that from time to time 
we're not always on the same page of the hymnbook, and this is 
one of those.
     Ms. Horn. I hope you've raised that, because it's such an 
important way to encourage that economic growth and development 
by investing in cutting-edge.
     Now, turning for a moment to cybersecurity and 
manufacturing, which are also topics that are critical and I 
think that we need to talk about. The Manufacturing USA 
program, of course you probably know it's a network of advanced 
manufacturing technology areas that have the goal of 
establishing American leadership in manufacturing.
     And with respect to cybersecurity, which is absolutely 
critical in high-tech manufacturing, the Manufacturing times 
Digital or MxD, which is a program that's funded by the 
Department of Defense, is focused on improving cybersecurity 
and digital manufacturing, and that is their focus. And on 
March 26 of this year, your Department announced a $70 million 
award for cybersecurity for a new Manufacturing USA Institute.
     So, Secretary, my question is why the duplication of 
efforts in those projects, which are basically the same? And 
have you encouraged your staff and the DOE to work with the DOD 
because this is very important, but in terms of streamlining 
our programs and not duplicating effort, why the duplication 
here?
     Secretary Perry. Yes. Congresswoman Horn, may I ask Paul 
Dabbar to weigh in here just a second? I think he may be able 
to enlighten us all a little better than me telling you from a 
high level.
     Mr. Dabbar. So we work with Under Secretary Griffin, who 
is in charge of research at DOD quite a bit, as well as our 
other peers at NASA and NSF (National Science Foundation) and 
the others. We each focus on different areas. To be direct, DOD 
focuses on lethality applications. The Department of Energy is 
more about energy and about science, and so there's different 
applications for different aspects. DOD, for example, does not 
focus on cybersecurity for the grid. They focus on 
cybersecurity for what they do.
     So there's a lot of similarities, there's a lot of overlap 
in their lab research and our lab research, but there's some 
very practical points of research that are different that's 
hard to fully get into here today.
     Ms. Horn. So just a quick follow-up on that, did you 
coordinate with the DOD to build the scope of this program to 
not overlap or their overlapping of the manufacturing? Because 
it's a whole new institute. That's my question. It's a whole 
new institute. Are there not other ways that this could be 
coordinated?
     Mr. Dabbar. For this particular institute I'm not certain 
if there was a discussion specifically with Under Secretary 
Griffin's scope, but we do it all the time with him across, you 
know, quantum, around AI, around hypersonics. So this 
particular one, I can't answer, and we can follow up with you 
on that.
     Ms. Horn. I would appreciate that, and I yield back the 
balance. Thank you, Madam Chair.
     Chairwoman Johnson. Thank you very much. Mr. Gonzalez.
     Mr. Gonzalez. Thank you, Madam Chair and Secretary Perry, 
for being here today.
     One of the challenges that I think we always face in this 
committee is connecting our basic research, which I think is 
absolutely critical to the future of our Nation to everyday 
constituent issues and things that folks on the ground are 
feeling on a day-to-day basis. And kind of with that in mind, 
especially when we're talking about things like quantum 
computing and AI and big data--and these are, you know, 
important buzzwords but, again, how do we connect it to the 
day-to-day?
     And one of the big issues across our country and in my 
district is the issue of veteran suicides. The number that's 
been most widely circulated is 20 veteran suicides a day. I 
know that the DOE and the VA (Veterans Affairs) have engaged in 
a partnership to solve just that with the use of some of our 
technology. I know my colleague Mr. Norman has introduced 
legislation to reauthorize that partnership. And I guess I'd 
like to just turn it over to you just to hear from your 
perspective how is the partnership working? What are you 
working on specifically with respect to the VA, and how can we 
do even better?
     Secretary Perry. Thank you. And, Mr. Gonzalez, thank you 
for your serious passion about this issue. Probably every one 
of us in here--because this isn't just about veterans.
     Mr. Gonzalez. Right.
     Secretary Perry. This is about our kids, it's about our 
colleagues, it's about the citizens of this country. And, Mr. 
Tonko, you and I talked about this. Congressman McNerney and I 
have talked about it, the importance of what we potentially 
have in front of us now because of the breakthroughs that we're 
seeing in the partnerships that are being created between 
historically disparate agencies of government. Nobody ever 
thought DOE was supposed to be involved in the--in traumatic 
brain injury or, you know, posttraumatic stress or CTE (chronic 
traumatic encephalopathy).
     And what we are showing people is that we have a real role 
to play in this. As a matter of fact, we may have one of the 
most important roles to play because of that computing capacity 
that we have and the ability for us to partner with the VA in 
the sense of working with the VA. The data that they have--and 
they know they can trust us. No offense to maybe some of the 
private-sector folks who have big computers and what have you, 
but I'm pretty sure that the VA and those veterans know that 
they can trust the Department of Energy not to allow this 
information to be used for some other purpose.
     So we are going to continue to look for ways to--you all 
have funded a line item at the DOE now if I'm correct in that 
to--this program is funding a--and it's a partnership of--and, 
if I may, the University of California San Francisco, Dr. 
Geoffrey Manley out there, finding some just really big 
breakthroughs dealing with brain science. So this is important 
work.
     Mr. Gonzalez. Fantastic. And, as you may also be aware, I 
recently joined my colleagues on this Committee to introduce 
the bipartisan Securing American Science and Technology Act, 
which is designed to improve our ability to protect federally 
funded research from foreign espionage, cyber attacks, and 
theft. I think it's a huge issue. We're going to invest in our 
technology. We want to make darn sure that nobody's here 
stealing it.
     Secretary Perry. Yes.
     Mr. Gonzalez. And so I applaud your efforts on the talent 
program and, again, I was hoping you could maybe provide an 
update on what the policy is and how you see it evolving going 
forward.
     Secretary Perry. Can I ask----
     Mr. Gonzalez. Absolutely.
     Mr. Dabbar. So the first thing that we just implemented, 
as the Secretary mentioned in his opening, was to ban people 
working at the national lab complex to work for foreign talent 
programs from China, Russia, North Korea, or Iran. And so we'll 
be giving people who are currently employed in the lab complex 
working for the Chinese State as a--you know, being co-hired, 
that that's no longer going to be allowed, and they have to 
make a decision of either working for them or working for us.
     By the way, this is very consistent with the cutting-edge 
universities where a lot of universities around this country 
are beginning to realize that this is a conflict of interest 
for them, so we're very consistent with what the university 
systems are looking at.
     The second thing that we're looking at is whether we 
should be developing a list of technologies that we're 
developing in the national labs and whether that list should be 
included--that before we do any work with anyone from those 
foreign countries, that we have an extra review----
     Mr. Gonzalez. Yes.
     Mr. Dabbar [continuing]. So this would not be a ban but 
this would be an extra review for key technologies such as 
quantum, such as new generation of batteries, and so on.
     Mr. Gonzalez. Fantastic. And I guess what--my final 
comment, I would encourage to--when I think of the innovation 
space, there's a funding component, there's a talent component 
and some other components, but not only should we be about 
making sure that folks aren't playing for both sides but how do 
we attract even more great talent here to the U.S.?
     And with that, I yield back.
     Mr. Tonko [presiding]. The gentleman yields back. The 
Chair now recognizes himself for five minutes.
     And thank you again, Mr. Secretary, for joining us this 
morning. Obviously, the agency has many daunting challenges 
before it and very timely, so great to have you here.
     Every year, the EPA (Environmental Protection Agency) 
publishes data on economywide greenhouse gas emissions. In 
2017, the transportation sector was the highest-emitting 
sector, but not too far behind it at 22 percent of U.S. 
emissions was industry. Emissions from the sector are expected 
to grow in the near term, and many industrial processes are 
considered to be difficult to decarbonize without readily 
available or cost-effective alternatives.
     Despite over 1/2 of our economy's climate emissions coming 
from transportation and manufacturing, the majority of our 
Federal R&D spending at DOE focuses on reducing emissions from 
the electricity sector. While these are critical and indeed 
worthy investments, I also believe DOE must support innovation 
in cleaner energy, not just cleaner electricity. Will you agree 
that DOE can help to develop cost-competitive technologies that 
reduce the greenhouse gas emissions out there while ensuring 
that domestic energy-intensive manufacturers continue to be 
leaders in innovation and remain globally competitive?
     Secretary Perry. Yes, sir. And I think our labs are 
engaged in some of those efforts as well. You know, the 
nonpoint source pollution issue, while I was the Governor of 
Texas, I had the opportunity to work with and put into place 
some programs that did exactly that, big fleet engines, for 
instance, the TERP (Texas Emissions Reduction Plan) program. 
Congresswoman Weber, if you'll remember, that was a reduction 
in emissions from old, inefficient fleet-type engines, and we 
gave a tax credit--and again, this wasn't on the innovation and 
the technology side, which is what DOD--E does, but it would--
it's a--maybe it's an idea that those of you in Congress could 
take a look at from the standpoint and give some incentives to 
States to implement programs like this.
     But we will continue to look for ways to--and I'm really 
proud of what the United States has done from the standpoint of 
reducing emissions. I mean, we're leading the world in the 
total reduction of emissions. And a lot of that's----
     Mr. Tonko. Well, but then we were swinging back up, so----
     Secretary Perry. But I think that's--you know, most of my 
folks at the Department tell me that is a temporary bump back 
up. And again, as we transition, I think it's important for us 
to go--where I can go sell American LNG (liquefied natural gas) 
into the European theater, remove old, inefficient coal-burning 
plants for cleaner-burning American LNG, I think that's just 
good all the way around. If I can get the Indians and the 
Chinese to recognize that, then we'll be making some progress 
in the world.
     Mr. Tonko. Well, we do that at the common table----
     Secretary Perry. Yes, sir.
     Mr. Tonko [continuing]. We need to stay with.
     There are many technology options we can explore to 
decarbonize manufacturing. This includes cogeneration, combined 
heat and power and waste heat to power, which can greatly 
improve energy efficiency at our industrial facilities. Mr. 
Secretary, is supporting greater adoption of cogeneration a 
priority for the Department?
     Secretary Perry. I don't know whether I'd put it as a 
priority. It's one of the areas that we care about, just like 
over in Congressman Weber's district there's a--I think it's in 
your district where the Petra Nova facility is. It's in Mr. 
Olson's.
     But the point is innovation and technology is the key to--
you know, again, I don't want to backtrack here, but 15 years 
ago they told us we'd found all the energy resources that we 
had in this country, and they were wrong because innovators in 
technology--and I will suggest that the innovation and 
technology is going to be found through the artificial 
intelligence and the machine learning that we have the power to 
control at the Department of Energy because of the funding by 
this Committee.
     Mr. Tonko. While cogeneration is critical, it will not 
solve challenges with process emissions, so other advancements 
such as carbon capture may be necessary. And I understand that 
the Office of Fossil Energy has done substantive work in 
developing this technology. And while CCS (carbon capture and 
storage) is not yet cost-effective in power generation, I 
believe it will ultimately be necessary for certain industrial 
applications. And what will you do to encourage collaborations 
amongst relevant offices at DOE to leverage existing resources 
and programs to ensure the CCS for industrial purposes are 
being given proper consideration and funding?
     Secretary Perry. I have made that one a priority, sir, and 
up to and including in the Clean Energy Ministerial we got CCUS 
(carbon capture, utilization and sequestration) put in as a 
priority at a global level at the Clean Energy Ministerial that 
was initially held in China and this last year in Vancouver. So 
we're making not just progress here in the United States, we're 
seeing some global saluting of that flag if you will by our 
partners around the globe.
     Mr. Tonko. But, again, I would suggest it needs to be 
applied to industrial emissions.
     With that, I have exhausted my time and will now recognize 
Representative Baird for five minutes.
     Mr. Baird. Thank you, Mr. Chair, and thank you, Mr. 
Secretary, for being here.
     We do appreciate the research funding that you mentioned 
in your initial comments. But your Department has an Office of 
Science, which funds the Bioenergy Research Centers (BRC), and 
they conduct coordinated and geographically diverse research in 
support of developing a viable and sustainable domestic biofuel 
and bioproducts industry from dedicated bioenergy crops. So 
each BRC is led by a DOE national laboratory or leading a U.S. 
research university and is staffed by multidisciplinary 
stakeholders in science, engineering, and industry.
     So as a scientist and a farmer, I support the biofuels and 
the bioproducts industry, and I'm particularly interested in 
the research and development that can diversify these 
industries, and that helps them to produce more product while 
lowering their cost of reducing their environmental impact.
     So my question is what do you see in fiscal year 2020 and 
beyond to support Bioenergy Research Centers and to expand 
their important research?
     Secretary Perry. Mr. Baird, we are very supportive of 
these Bioenergy Research Centers, and each of them are led by a 
DOE lab or a top university and sometimes--and even in 
partnership, and they're basically designed to lay out the 
scientific groundwork for new bio-based economy.
     And the--well, I give you an example. Maybe some in your 
districts the following centers were selected based on an open 
competition. The Great Lakes Bio Research Center, that's up in 
Madison, and they're partnering with Michigan State. There's 
another at the Oak Ridge National Lab. There's another at 
Lawrence Berkeley National Lab (LBL). There's a center for 
bioenergy and byproducts--bioproducts innovation, and that's at 
the University of Illinois at Urbana at Champaign.
     So I think there's been--over 2,500 peer-reviewed 
publications came out of that. There's been 1,000-plus 
invention disclosures that came out of it, so from the 
standpoint of what your return on the investment I think it's 
pretty--it's been pretty good, sir.
     Mr. Baird. Thank you. I have one other question, and that 
deals with looking in another area. Now, my colleague Mr. 
Gonzalez made reference to the Veterans Administration, but--
and I recently cosponsored some legislation along with my 
colleague Representative Wexton to prioritize opioid research 
at the National Science Foundation. And I know you've indicated 
the use of the DOE's supercomputing capacity to tackle the big 
data challenges often in the healthcare space. So would you 
mind elaborating again on what kind of role you think the DOE 
might play in helping the Federal healthcare agencies, 
including the Veterans Administration----
     Secretary Perry. Yes, sir.
     Mr. Baird [continuing]. Better understand--to better 
understand the opioid crisis?
     Secretary Perry. Yes, sir. The good news is we're making 
some good progress. Mr. Waltz, back probably in mid-2000s, '06, 
'07 when the war on terror was really at one of its apexes, 
being the Governor of Texas, I had the opportunity to go to 
Brooks Army Medical Center on a fairly regular--more regular 
than I'd like to be in going to young men and women who were 
burned.
     And then at that particular point in time we saw our 
Federal Government being rather liberal in the dispensing of 
opioids and, you know, half-a-dozen years later we figure out 
that we've basically created a whole generation of young people 
who are dependent upon these things. And we started pulling 
back from them. And this was probably 3 or 4 years ago. BAMC 
(Brooke Army Medical Center) had decreased by 90 percent the 
amount of opioids that they were giving to the young people 
that were coming in and dealing--they were coming up with some 
different ways to deal with it.
     With that said, we've still got a real opioid crisis in 
this country. We think it may be genetically driven to some 
degree, so again, the supercomputers and our ability to do 
genetic testing of some of these populations out there and, 
again, doing it in a way that the people know that this 
information is going to be safe and secure, the Department of 
Energy is going to play a very vital role in being a partner 
working with NIH (National Institutes of Health), working with 
the VA, working with some of our private sector partners and 
our university systems to--I think we will find a solution to 
the opioid epidemic that we have in this country. And we'll--
this will happen--my projection is this will happen sooner 
rather than later.
     Mr. Baird. Thank you, and I yield back.
     Chairwoman Johnson. Thank you very much. Dr. Foster.
     Mr. Foster. Thank you, Madam Chair, and thank you, 
Secretary Perry.
     You know, I just want to tell you how much I enjoyed 
having the privilege of escorting you around the two crown 
jewels of the national laboratory system, Argonne National 
Laboratory and actually I think there was a slide that was 
going to be put up here in a moment, if we could put it on the 
screen, please.
     [Slide.]
     Mr. Foster. Yes, so this is one of the many hats I wear is 
as the Co-Chair of the National Labs Caucus where we are also 
planning to be visiting all 17 of the national laboratories. 
And I'll be leading as large a congressional delegation as I 
can corral. The first of these, shortly after National Lab Day, 
we're going to be heading to the New Mexico national labs, Los 
Alamos, Sandia, also White Sands where they do missile, 
antimissile, directed energy work, and the Alamogordo Trinity 
test site where the first nuclear weapon was detonated about 75 
years ago now.
     The next one is going to be in the bay area where 
Representatives Jerry McNerney and Zoe Lofgren on this 
Committee will be the hosts of a visit to the bay area labs, 
Livermore, Sandia, LBL, and SLAC.
     Following that, we are visiting the crown jewels. I'll be 
hosting a visit to the Illinois labs at Argonne National Lab 
that I represent and, which, by the way one of the things that 
they have done at their synchrotron light source is to use them 
to directly image the molecules that are involved in opioid 
receptors in the brain, these G-coupled protein receptors. This 
is Nobel Prize-winning research that allows us to directly 
image the molecules involved in opiate addiction and one of the 
very wonderful things that are often not talked about, and of 
course Fermi National Lab where I worked for 23 years before 
getting into this insane business.
     Also, later on, Congressman Ed Perlmutter will 
enthusiastically host a visit to the Denver area and western 
labs and at times to be scheduled where also the two Republican 
Co-Chairs of the National Lab Caucus will be hosting visits to 
Oak Ridge and Savannah by Chuck Fleischmann. Lee Zeldin will be 
hosting a visit to the Brookhaven National Lab. And we've 
actually already had our first visit, where Chairman Lamb has 
invited us to go see NETL (National Energy Technology 
Laboratory).
     And so, I understand why you enjoyed so much visiting 
these 17 labs, and it's really essential that the entire 
Congress recognizes the importance of these. And so--any of 
you--any opportunity for Paul Dabbar, you or any of your staff 
to join these, you're obviously more than welcome.
     Now, in my remaining time I would like to discuss the 
issue of low-enriched versus high-enriched uranium. You know, 
this is something that comes up in many guises. You mentioned 
the KRUSTY work. You also recently signed a letter where the 
Navy was trying to discourage Congress from pursuing something 
that it's pursued for quite a while now, which is to encourage 
the Navy to look at the possibility of using low-enriched 
uranium in its propulsion reactors.
     Now, I'd just like to emphasize the reason that 30 Nobel 
Prize winners have signed a letter advocating the minimization 
of low-enriched uranium. There's a reason that we don't test 
nuclear weapons. If we did test nuclear weapons, our nuclear 
arsenal would be safer, cheaper, more secure, more reliable. 
But we do not test nuclear weapons because if the rest of the 
world followed us in that example, it would be a national 
security disaster.
     The situation is identical for low-enriched and high-
enriched uranium. If we start using high-enriched uranium, 
weapons-grade uranium in applications where it is not strictly 
needed and the rest of the world follows us, things like 
propulsion reactors for icebreakers or, you name it, the things 
that they have the right to do under the nonproliferation 
treaty, it will be a disaster for nonproliferation and national 
security because any country that has a reactor's worth of 
high-enriched uranium has everything they need in terms of 
fissile material to make multiple nuclear weapons.
     And so we've worked as a country for 40 years minimizing 
worldwide use of this, and we will continue to engage with you 
to make sure that every time that we have the option of using 
low-enriched or high-enriched uranium that we choose the safe 
one and not use weapons-grade.
     Secretary Perry. Yes.
     Mr. Foster. So we've already communicated on this----
     Secretary Perry. Yes, sir.
     Mr. Foster [continuing]. And we'll be continuing.
     Secretary Perry. Yes, sir.
     Mr. Foster. And I have a grand total 23 seconds left, so I 
guess I just wanted to see how you view after having now 
completed your visit of the 17 labs. You know, what are the 
things you'd really like to get done organizationally that will 
really improve their effectiveness?
     Secretary Perry. Yes, sir. Let me just add, as I don't 
know if I would make any changes organizationally to the 
structure that we have. I think these labs--I got some pretty 
good advice from former Secretary--former Governor of New 
Mexico Bill Richardson. He said, ``Perry, don't mess with the 
national labs.'' And that's frankly some pretty good advice.
     For the record, I would like to invite all of you to come 
out to your neck of the woods in October of this year for an 
XLab event that we're having, which is where we bring in the 
private sector that are partnering with the national labs in a 
host of different areas. I mean, it's some fascinating stuff. 
And again, we don't have time for me to put on my cheerleader 
hat and talk about these national labs, but whether you've got 
one in your district or not, if you have the opportunity to go 
to a national lab, please do it. It's some of the most 
brilliant, capable men and women who are making, I think, more 
difference in America than any single group of people in this 
country.
     Mr. Foster. Thank you. And you've been a wonderful 
Ambassador to science to an Administration that makes that not 
always an easy job, so thank you so much----
     Secretary Perry. Yes, sir.
     Mr. Foster [continuing]. And yield back.
     Secretary Perry. And, Mr. Foster, let me just say, in the 
timeliness of this XLab event in Argonne in October is on 
artificial intelligence.
     Chairwoman Johnson. Thank you very much. Mr. Balderson.
     Mr. Balderson. Thank you, Madam Chair. Thank you, Mr. 
Secretary, for being here this morning.
     Mr. Secretary, approximately 25 percent of my district in 
Ohio is rural.
     Secretary Perry. Yes, sir. There you are.
     Mr. Balderson. For my constituents to access a quality 
education, science, technology, engineering, and mathematics--
STEM--is critical. Many of the job openings that cannot be 
filled in rural Ohio are STEM-focused. As Secretary of Energy, 
what are you doing this year and what will be done in fiscal 
year 2020 to ensure that the Department's STEM outreach and 
engagement activities reach the rural communities like mine?
     Secretary Perry. Yes, sir. One of the areas that we're 
focused is on the DOE's Office of Economic Impact and 
Diversity, and that program is created to expand the 
participation of individuals who historically may not have had 
the same opportunities.
     I can speak a little bit of--historically to this. I grew 
up in a place--my high school--well, my school, grades 1 
through 12, had 115 kids. I probably wouldn't be sitting here 
in front of you if I'd gone to a bigger school because I 
could've learned how to use a slide rule and probably done a 
little better in organic chemistry and I would've ended up 
being a veterinarian. Organic chemistry changed my life and 
made a pilot out of me. So anyway, enough of my personal 
travails.
     The point is that a lot of these rural communities don't--
haven't historically had access to some of the science, 
technology, engineering, and math programs that children really 
need to be successful, and this program is exactly focused on 
that.
     And Secretary--or I should say Under Secretary of Science 
Paul Dabbar and our Chief Commercialization Officer are 
currently working with our national labs, again, and the 
University of Chicago to do a roundtable this summer to explore 
some pathways of continuing to harness these kids with this 
technology, and we're--you know, I'm pretty excited. We've got 
a--we've got a program called Making Nuclear Cool Again at the 
Department where we're reaching out and helping to--you know, 
again, when I was going to college, being a nuclear engineer 
was a pretty cool thing, and it's lost a lot of its shine if 
you will.
     So, again, whether it's small modular reactors, whether 
it's the microreactors we're talking about, bringing the 
nuclear energy interest back into that area and preparing young 
people to be the scientists and technicians that we're going to 
need are going to require these STEM programs. And rural 
America absolutely does not need to be overlooked any longer.
     Mr. Balderson. All right. Thank you very much for that 
answer. My final question is I'm honored to be the lead 
Republican cosponsor of Congresswoman Stevens' bill, the 
American Manufacturing Leader Leadership Act. The bill passed 
out of this Committee last month and underscores my support for 
making strategic investments in advanced manufacturing R&D.
     Mr. Secretary, if this bipartisan legislation was enacted 
and the Department had the ability to open an additional Center 
of Manufacturing Innovation, what manufacturing challenges 
would you look to research?
     Secretary Perry. Well, there's a host of areas that 
advanced manufacturing is making some housing--and you think 
about Secretary Carson actually had on the Mall I think within 
the last 30 days some manufactured housing. And, you know, when 
we talked about--Mr. Baird, where I'm from, manufactured 
housing generally was on wheels, and that's not the case 
anymore. Because of our additive manufacturing processes that 
we have today, we're able to build some housing that is highly 
efficient, that is cheaper substantially than--so advanced 
manufacturing in places that you don't historically think 
about, automotives, the--we're literally building a nuclear 
reactor and the parts for the nuclear reactor out of additive 
manufacturing. I mean, it's just--it's stunning the progress is 
being made in that arena, so Advanced Manufacturing Office is, 
you know, obviously got our attention, and it is another of 
those priorities that we have.
     Mr. Balderson. Thank you very much. Thank you, Madam 
Chair.
     Chairwoman Johnson. Thank you very much. Mr. Beyer.
     Mr. Beyer. Thank you, Madam Chair, very much. Mr. 
Secretary, thank you for being here.
     You know, DOE has robust programs have helped demonstrate 
carbon capture technology, on an ethanol plant, on a hydrogen 
production facility, on a coal-fired power plant, but we're 
enjoying this explosion of natural gas, the shale gas 
revolution. What is DOE doing for carbon capture on natural gas 
plants and on other things like cement manufacturing?
     Secretary Perry. Yes, sir. As I said--and I'm not going to 
rehash this again, but we--we've really focused--I think one of 
the first projects I went to as Secretary was the Petra Nova 
plant outside of Houston. I think it's in Fort Bend County. And 
the--where 90-plus percent of the emissions are captured. 
They're then sent over to be used in an enhanced oil recovery 
process in an oilfield I think 80 miles away in--outside of 
Victoria, Texas. So----
     Mr. Beyer. And what kind of plant is Petra Nova?
     Secretary Perry. Petra Nova is a coal-powered plant.
     Mr. Beyer. OK. So those are--you know, those--we're not 
building any new ones; we're closing the old ones down. What 
are we doing with the natural gas plants?
     Secretary Perry. Paul, you want to take a----
     Mr. Beyer. Mr.----
     Mr. Dabbar. So this is actually one of the most exciting 
things that we're doing----
     Mr. Beyer. Paul, if I could focus on the Secretary----
     Mr. Dabbar. Yes.
     Mr. Beyer. Great, thanks. But if you don't know, Mr. 
Secretary, I'll move on. The National Academies----
     Secretary Perry. Well, here's what I'm interested in. I'm 
interested in trying to pass on information the best I can to 
you, and if I don't have----
     Mr. Beyer. OK. OK. I understand.
     Secretary Perry [continuing]. Those timely, I'd like to 
use Paul because he gets out into that area more than I do.
     Mr. Beyer. But we have greater access to Paul.
     Secretary Perry. Yes.
     Mr. Beyer. We can----
     Secretary Perry. Yes. Great.
     Mr. Beyer [continuing]. Do that for the record.
     Secretary Perry. Perfect.
     Mr. Beyer. We only get you once a year or something.
     Secretary Perry. I hope you've got good access to me. All 
you got to do is call.
     Mr. Beyer. Well, I do.
     Secretary Perry. OK. Great.
     Mr. Beyer. The National Academies have pointed out that we 
need negative emissions technologies, pulling carbon out of the 
air, out of the ocean. How has the National Academies' 
assessment been received by the Department of Energy and what 
are you doing about the negative emissions technology?
     Secretary Perry. Yes, let me just give you a little 
statement that I think--I found really interesting. Fatih Birol 
is the head of the International Energy Agency in Paris. I 
don't think there's anybody that I've been dealing with that's 
got a better handle on--that's as nonpolitical. He just looks 
at the facts and what have you. And he said if we eliminate 100 
percent of the passenger cars that are running on gasoline 
today, transition every one of them to electric, we would still 
need 81 percent of the oil and gas production that is occurring 
in the world to be able to continue on developing, 
manufacturing, running our fleet engines and what have you.
     So we know we've got--we've got some real challenges here 
from the standpoint of how are we going to deal with--you know, 
there are folks that are talking about completely switching 
over their fleets to renewables, and that--you know, I'm not 
going to argue----
     Mr. Beyer. Mr. Secretary, can I interrupt? I asked 
specifically about pulling carbon out of the atmosphere and out 
of the oceans.
     Secretary Perry. Yes.
     Mr. Beyer. Is DOE working on this? This is one of the 
National Academies' recommendations.
     Secretary Perry. Yes, I think there are some Oregon State 
projects that are going on on the ocean side of it, correct, is 
my understanding.
     Mr. Beyer. OK. Well, maybe we'll follow up with Paul 
later.
     Secretary Perry. Yes.
     Mr. Beyer. One more question. You mentioned a number of 
times about artificial intelligence and your excitement about 
machine learning. What questions is the Department of Energy 
attempting to answer with machine learning?
     Secretary Perry. You don't have enough time to get the 
answer to that from me or anybody else sitting here because 
it's across the board. It's things as interesting as 
concussions. And we've historically been taught that there are 
three levels of concussion, mild--or, excuse me, there's mild, 
moderate, and severe. And because of the work that's been done 
at the University of California San Francisco, the program that 
we're involved with, their Department of Neuroscience, Dr. 
Geoffrey Manley will tell you there's 28, and that's because of 
artificial intelligence and machine learning and these 
supercomputers that we're running at the Department. So, I 
mean, that's just in a very slender area of brain science. When 
you----
     Mr. Beyer. So you're using artificial intelligence to 
solve problems across the board not specifically Department of 
Energy questions?
     Secretary Perry. Right, and I hope----
     Mr. Beyer. Department of Energy as a resource rather than 
energy questions that are arising.
     Secretary Perry. Right, but they're energy questions that 
are arising that we're being able to find solutions to because 
of this massive amount of data that we're able to crunch if you 
will and give us answers to questions that, before, we just 
didn't have the time and the computing capacity to get to.
     Mr. Beyer. OK. My time is up, but I'd appreciate, perhaps 
through the Under Secretary, answers to the questions about 
carbon capture----
     Secretary Perry. Right.
     Mr. Beyer [continuing]. And the shale gas. So thank you 
very much. I yield back.
     Chairwoman Johnson. Thank you very much. Mr. Waltz.
     Mr. Waltz. Thank you, Madam Chairwoman, and thank you, Mr. 
Secretary, for your leadership.
     Look, I think that what's going on in the energy 
revolution in the United States of America is one of the great 
news stories and maybe the news story of the 21st century from 
the exports reaching 10 million barrels a day to export of LNG 
and shifting that entire industry, and then, as a combat 
veteran, which my colleagues have heard me say on this 
committee, I can't tell you how many veterans, how many wounded 
warriors we have in Walter Reed, how many we've lost hauling 
diesel fuel across exposed supply lines getting IED'ed when 
many of those outposts and in fact many portions of our 
military can and should be existing on renewables.
     So one of the things that I'm most excited about is solar 
and where Florida is going with solar. One of my first visits 
was to a solar site with--that's built by Florida Power and 
Light, and its drive to have 30 million panels by 2030 with 10 
gigawatts of electricity. I am proud to say Florida has 
eclipsed California now in Q-1 of 2019 with the most solar 
power installations for No. 1 in the country for new panels and 
in the next five years is--should be No. 1 across the board. So 
I think the Sunshine State is living up to its name.
     My question, Mr. Secretary, is how do you see the 
Department really sustaining the private-sector growth? And, as 
a conservative, I love it that it's the private-sector leading 
the charge on this, but obviously it's a state issue, and 
Governor DeSantis has been a real leader. How do you see the 
Department continuing to really embolden and empower the 
private sector and--particularly in solar but renewables writ 
large?
     Secretary Perry. Well, I look at our role as--from the 
standpoint of continuing to fund the opportunities to have 
public-private partnerships, the commercialization of 
innovation and technology that's coming out of our national 
labs, for instance. I think a Governor and a legislature in a 
particular state would be wise to look at ways for that--and 
give incentives to companies to risk their capital, working 
with their universities, for instance, which is where, by and 
large, your State's innovation and technology will come from, 
looking for ways to partner up with the DOE where you have the 
trifecta if you will of the State, the Federal, and the local 
working together on some of these projects.
     So--and a great example of this, Florida Power just 
announced a 491 megawatt utility battery. I mean, that's 
massive. I mean, we're talking--and so with what you're doing--
--
     Mr. Waltz. It's exciting.
     Secretary Perry [continuing]. On solar--and by the way, 
just for the record, solar just bypassed hydro--or was it--
isn't that right? Solar just bypassed hydro as a total 
deliverer of power in this country. I mean, it's just some--you 
know, the wind, the solar side of things are really making some 
good progress. And battery storage is I think the--as we talked 
about----
     Mr. Waltz. Yes.
     Secretary Perry [continuing]. Earlier, the Holy Grail of 
this----
     Mr. Waltz. Mr. Secretary, just in the interest of time, 
I'm glad that you mentioned resiliency. Again, my predecessor 
in this seat, now Governor DeSantis, has announced a Chief 
Science Officer and is going to announce a Chief Resiliency 
Officer. If there's anything I hear about from constituents, 
it's traffic and flooding. I've joined the National Flood 
Coalition. Where do you see--I know you mentioned a bit 
earlier. Where do you see the Department's help in resiliency 
issues?
     And then just in the interest of time if I could ask you 
to submit for the record--I know you mentioned the 17 labs. 
We've talked a lot about it. DOD also has 63 labs, and I'd be 
interested for the record how you coordinate. I mean, that's a 
lot of activity, and we need to spend those dollars efficiently 
and just how you coordinate, and then also expanding the scope 
of ARPA-E and--I think if we get into some other areas like 
nuclear waste disposal and other things that it may be more 
palatable across the board----
     Secretary Perry. Yes.
     Mr. Waltz [continuing]. In terms of funding that 
organization.
     Secretary Perry. Yes. And so let me back up here and just 
hit a few of the highlights of what you talked about. I think 
coordinating between agencies is really important, and one of 
the ways to do that is actually to show up and to know what 
other agencies are doing rather than just kind of staying 
siloed in your own--I'm going to DARPA tomorrow to talk to them 
about some of the things that they're doing, some of the ways 
that we can partner with them and, quite frankly, to make sure 
that, you know, they're not duplicating some things.
     I think Paul did a pretty good job earlier talking about--
you know, we kind of got different--we've got different 
missions----
     Mr. Waltz. Right.
     Secretary Perry.[continuing]. DOD and DOE, but to make 
sure that we're not--and the resiliency side of what, you know, 
we talked about, CESER is really important in that. We are the 
agency that has the responsibility for the reliability in the 
electrical sector. That's--to make sure that the lights come on 
and it's protected, that is the DOE's responsibility. Other 
agencies have some areas of--that kind of come in on the 
fringes, but DOE, that's their baby, making sure that we have 
that reliability, that resiliency in the electrical grid. So 
we're doing everything that we can, using those computers to 
model.
     And let me finish up by saying that the modeling side of 
what DOE is doing on the environment is going to pay, I think, 
some great dividends to your State, those States with those 
low-lying areas that are seeing flooding occurring, seeing the 
effect of this changing climate that we live in, and so, you 
know, I think these are some important goals and roles of which 
DOE is a----
     Mr. Waltz. Thank you, Mr. Secretary. I'm on Armed Services 
as well, so I certainly appreciate that coordination. And, 
Madam Chair, I yield my time.
     Chairwoman Johnson. Thank you very much. Mr. Crist.
     Mr. Crist. Thank you, Madam Chair. And thank you, 
Secretary, Governor Perry, for being with us today. It's always 
good to see you.
     It's no secret I'm really excited about solar energy, as 
is my colleague, Representative Waltz, to help our nation and 
frankly the world transition to a clean energy economy. 
Unfortunately, the Administration proposed cuts to the Solar 
Office of more than 70 percent and justified those cuts by 
saying that the office is conducting activities that can and 
should be carried out by the private sector.
     Last year, however, the Administration established tariffs 
on solar cells, which supply the majority of U.S. solar 
companies. These tariffs have arguably raised prices, slowed 
the industry to a degree, and made it harder for solar 
companies to invest in their own research and development 
activities. And, notably, two companies the tariffs were 
intended to help--Suniva and SolarWorld--are now out of 
business as of just this month.
     Did the Administration consult with solar developers to 
your knowledge about their ability to invest in research, 
development, and demonstration under the financial constraints 
of the tariffs?
     Secretary Perry. Congressman Crist, I have no information 
that--either acknowledging that or--I have no knowledge about 
any correspondence between those companies and the 
Administration.
     Mr. Crist. OK. Thank you. Did you ever consult with others 
in the Administration such as maybe the trade representative 
about how tariffs could negatively impact the ability of solar 
companies to invest in research and development?
     Secretary Perry. Not necessarily just solar companies but 
there have been a number of companies that I've had 
conversations with that I did share with Ambassador Lighthizer 
the challenges that the tariffs, as proposed, were going to 
have on these U.S.-based companies and, frankly, have had some, 
you know, success in being able to--you know, one of the things 
I do--one of my jobs as Governor, as you know, is get people 
together and to open up some doors. I think it's wise for us to 
be able to say, hey, look, here's a constituent that I've got 
that's having some challenges with what you're proposing and 
would you talk to him? And I've had some success in being able 
to put them together.
     I don't know--because those--you know, we don't have a 
deal yet with the Chinese with specificity----
     Mr. Crist. Right.
     Secretary Perry [continuing]. But I think it's important 
for us to--you know, they need to hear from people who are on 
the ground who see the challenges that decisions that we make 
in government have on them.
     Mr. Crist. Wonderful. Do you think tariffs are a more 
effective way to protect these companies than sustained Federal 
investment in research and development?
     Secretary Perry. You're starting to get a little bit out 
of my area of expertise, Governor.
     Mr. Crist. All right. Very well. Well, I will yield the 
balance of my time, and thank you for being here again.
     Secretary Perry. Yes, sir, thank you.
     Chairwoman Johnson. Thank you very much. Mr. Marshall.
     Mr. Marshall. Yes, thank you so much, Chairwoman. And, Mr. 
Secretary, again, welcome.
     And I just want to start by saying what a great country we 
live in. I'm so proud that our carbon emissions today, a nice, 
steady downward trend since 2003, and I think that's mainly due 
to conservation and innovation.
     And if I could take our time to lock in on agriculture and 
rural America for a second, as I look at the big picture, 
transportation creates about 29 percent of this country's 
carbon emissions, industry about 1/4, and agriculture about 9 
percent. So we feed this entire country and only produce about 
nine percent of carbon emissions, and we're still able to 
transport another 1/4 of our products out of the country with 
that in mind.
     In my adult lifetime we're doubling the agriculture 
production, we're using less water, but still over the last 
decade agriculture has had a smaller carbon footprint. So I'm 
really proud of that.
     What is the DOE doing to help promote conservation, 
promote innovation? So even though we're improving, agriculture 
wants to keep improving. How can we keep working together? What 
can we do to put wind beneath your sail?
     Secretary Perry. Yes, Mr. Marshall, I think there's a 
couple of areas that I would mention just that I've seen, 
again, in my travels through the national labs. And keep in 
mind one of my prior jobs in the State of Texas would be the 
Agriculture Commissioner for 8 years, so--and I grew up on a 
farm and my mom still lives on that farm. So there's this real 
personal connection back to rural lifestyle, rural values, and 
certainly the great contribution that agriculture and those 
rural communities make to America.
     With that said, in--the additive manufacturing side is one 
of the areas where I think we have some great potential to 
continue to be developing more efficient equipment both from a 
weight and a strength standpoint that these national labs, the 
work that's being done at Oak Ridge National lab, their 
additive manufacturing facility there is pretty fascinating. I 
made mention of Secretary Carson having some manufactured 
housing, additive manufacturing housing shown on the Mall here 
within the last 30 days. He also had a vehicle. It was a Cobra, 
a Shelby Cobra that was built by the national labs.
     And so the agricultural community can be served, I think, 
well in the additive manufacturing side with some of the work 
that we're doing.
     Also at the Sandia National Lab at--and this is Sandia 
National Lab over in California at Lawrence Livermore, the work 
that they're doing on efficiency, on diesel engine combustions 
and the emission side of it, again, there is--you don't think 
about the Department of Energy and agriculture--that's not the 
first thing that comes to mind.
     Idaho National Lab--and I'll finish with this--the work 
that they're doing on biofuels and some of the real progress 
that they're making there. So there's three examples of a place 
where the Department of Energy is I think making some positive 
impact on the agriculture/rural communities.
     Mr. Marshall. Great. Let's talk about rural America for a 
second and the challenges, the improvements of battery storage. 
Like Texas, Kansas has a large wind energy production. About 35 
percent of our electricity is generated from wind, was recently 
in Johnson City, Kansas, our largest solar farm. We are 
breaking ground on it recently. And what I learned is that, 
despite originally intending to buy those solar panels from 
China, that already, as President Trump predicted, they've 
removed that supply chain of solar panels to other countries, 
and therefore able to pull this project off, so it's exciting.
     But one of the challenges is when we have battery storage 
for one or two people in a mile stretch of dead-end road is a 
little bit different than battery storage for big cities. Can 
you speak a little bit what the DOE is doing for battery 
storage and how that technology is being--improving. What do 
you see the future looks like?
     Secretary Perry. Yes. I mentioned a little earlier what 
was happening in Florida with what Governor DeSantis was laying 
out, along with Florida Power, on their storage. A lot of that 
technology came from work that's been done at a national lab, 
PNNL (Pacific Northwest National Laboratory) and some of the 
work that they're doing on battery storage, so we're--you know, 
there's new grid storage launchpad that's occurring at DOE. 
That's going to accelerate material development, testing, 
having some independent evaluation of battery materials, 
battery systems.
     I think I asked Paul to talk a little bit about some of 
the elements in these batteries that are not rare-earth 
minerals that are going to be very effective for us and that we 
don't have quite--well, we don't have the concern about where 
those materials are going to be coming from. They're developed 
in the United States. So validating this material capability, 
accelerating new technologies, and obviously collaborating--the 
collaboration both with the DOE and the labs out there in the 
private sector.
     And the States have a role to play in this as well.
     Mr. Marshall. Of course.
     Secretary Perry. I mean, one of the things I always remind 
people is that when they think about Texas, they always think 
about, you know, yes, you are a big oil-and gas-producing 
state, which we are, but we also became the number-one wind-
energy-producing State while I was the Governor of the State 
because we wanted to have a diverse portfolio. And so the wind 
energy side of what occurred in Texas--I remind my friends in 
Europe on a regular basis, Mrs. Fletcher, when I go over there, 
that Texas produces more of its energy percentagewise than what 
the European Union does. That's a good thing.
     Mr. Marshall. Thank you, and I yield back.
     Chairwoman Johnson. Thank you very much. Ms. Wexton.
     Ms. Wexton. Thank you, Madam Chairwoman, and thank you, 
Secretary Perry, for joining us here today.
     Mr. Secretary, earlier this month, your Department moved a 
political appointee into the position of Deputy Assistant 
Secretary for Energy Efficiency within DOE. Do you know who--
the name of this individual? I can just tell you, Mr. 
Secretary. It's Alex Fitzsimmons.
     Secretary Perry. Yes.
     Ms. Wexton. Does that sound familiar?
     Secretary Perry. Yes, I--yes.
     Ms. Wexton. OK. Can you tell me anything about his 
qualifications for this job?
     Secretary Perry. I--as a regular practice, I don't talk 
about personnel issues in the public.
     Ms. Wexton. Very good. Well, I'll just share with you some 
of what I've learned in the public domain about Mr. 
Fitzsimmons. He graduated from George Washington University in 
2012 with a degree in political science, and he spent the next 
4 years in a variety of junior roles at fossil fuel energy 
advocacy groups, including the American Energy Alliance.
     Now, I was surprised to learn, but you may not be, that in 
2015, while Mr. Fitzsimmons was there, the American Energy 
Alliance called for Congress to eliminate the Office of Energy 
Efficiency, the very office he now leads. Were you aware of 
that?
     Secretary Perry. No, ma'am, but here is what I am aware 
of.
     Ms. Wexton. No, that was my question. Now, you know about 
the Office of Energy Efficiency----
     Secretary Perry. This is going to be good. You should let 
me go, but I'm not going to do it now.
     Ms. Wexton. Fair enough. Now, you do know about the Office 
of Energy Efficiency. It has hundreds of full-time staff. It 
supports thousands of national lab employees. It's the lead 
Federal agency for energy efficiency policy programs and 
research, which include advanced manufacturing, building 
Federal energy management, and low-income weatherization, 
right? I mean, that's what it does.
     Now, by way of contrast with regard to qualifications, the 
previous Deputy Assistant Secretary for Energy Efficiency 
Kathleen Hogan served in that role for a decade. Prior to that, 
she served at EPA as a Division Director. She received a 
Presidential Rank Award, was inducted into the Energy 
Efficiency Hall of Fame for the U.S. Energy Association, and 
was a contributor to the Nobel Peace Prize awarded to the 
Intergovernmental Panel on Climate Change. She has a Ph.D. from 
the Department of Geography and Environmental Engineering at 
Johns Hopkins University.
     And her predecessor served at DOE as a technology leader 
for nearly 20 years before rising to the rank of Deputy 
Assistant Secretary.
     Now, as I understand it, Mr. Fitzsimmons is the first-ever 
political appointee to serve in that role, and he is by far the 
youngest. Can you tell me why you chose to fill the position 
with a political appointee instead of a career technologist?
     Secretary Perry. I'm going to pass on talking about 
personnel issues.
     Ms. Wexton. OK. Well, I understand that Mr. Fitzsimmons is 
serving in an acting role. Can you tell us when you expect to 
fill that position on a permanent basis?
     Secretary Perry. I can't.
     Ms. Wexton. Well, when you do, I hope that you find 
somebody with the experience and gravitas to lead hundreds of 
the nation's best scientists and engineers.
     Now, I want to talk a little bit about some of the budget 
proposals from the Administration. This year, the 
Administration's budget request proposes massive cuts to 
renewable energy across the board with cuts higher than 70 
percent for both wind and solar offices. If these cuts were to 
take place, can you tell me approximately how many lab 
employees would lose their job?
     Secretary Perry. I would have to go back and--I think 
trying to play the hypothesis game of if you do this, then 
what's this budget look like is----
     Ms. Wexton. But would you see that cutting the budget----
     Secretary Perry [continuing]. Kind of a waste of my time 
and your time frankly.
     Ms. Wexton. Would you agree that cutting the budget by 70 
percent will cause some of the lab employees to lose their 
jobs?
     Secretary Perry. What I'll tell you is that I think, you 
know, cutting the--you could make the statement that cutting 
the budget by 100 percent would cause some people to lose their 
job, but that's not the reality that's going to happen in this 
Committee, and how you look back historically at what this 
Committee has done.
     And here's what's more important is that I understand how 
to manage an agency. I had the opportunity to manage a fairly 
big entity for 14 years as the Governor of the State of Texas. 
And I also respect the appropriations process. And the 
appropriators are going to decide the dollars----
     Ms. Wexton. Madam Chair, reclaiming my time----
     Secretary Perry [continuing]. That are spent.
     Ms. Wexton [continuing]. If I may. Reclaiming my time. I 
understand Mr. Secretary, what you're saying about the budget 
and appropriations process, but what I would ask that you keep 
in mind is that even when these proposed cuts are rejected by 
Congress, which they surely will be, that you understand that 
these proposed cuts have severe impacts on lab employees and 
the morale within those labs that you have spoken so highly of.
     Thank you, and I yield back my time.
     Chairwoman Johnson. Thank you very much. Mrs. Fletcher.
     Mrs. Fletcher. Thank you, Chairwoman Johnson, for holding 
this hearing. Thank you, Secretary Perry, for testifying before 
our Committee today.
     As a native Houstonian and a Texan and now the 
Representative for Texas' 7th Congressional District in Houston 
where I represent the energy corridor, I appreciate the all-of-
the-above energy approach that you talked about this morning 
and that you embraced as the Governor of our State. And these 
innovative policies have led Texas to being really the leader 
in renewable energy.
     People are indeed surprised when I tell them that Texas 
produces the most wind energy of any State in the union, more 
than three times the next-leading State. And I give credit to 
your policies for that every time I talk about it because I 
really think that it is important what we're doing in terms of 
diversifying our portfolio in talking about research.
     And so for that there are a couple of budget priorities 
that I do want to talk about and get your perspective on this 
morning. The Department of Energy has worked on carbon dioxide 
removal technologies, and the intergovernmental panel that 
we've talked about this morning as well recommend carbon 
capture as being a critical piece in our path forward in 
combating climate change. So where DOE has worked on 
technologies like direct air capture and development through 
fossil energy, the Office of Energy Efficiency and Renewable 
Energy, ARPA-E, and the Office of Science, we've seen some of 
the major successes from that in the Petra Nova plant that you 
referenced earlier in your testimony.
     In addition, in response to Congressman Beyer's question, 
there's the NET Power plant just outside of Houston, which is 
working on natural gas technologies, as well as coal. So 
there's a lot of that happening.
     But from the budget priorities, it's not clear whether the 
Department of Energy will continue to support this promising 
technology. Can you talk a little bit about what the Department 
of Energy plans to do going forward when it comes to carbon 
capture technology?
     Secretary Perry. I can give it to you--the short version 
is we're going to continue to support it. It's going to 
continue to be a priority. There's a National Carbon Capture 
Center in Alabama, and that's going to be validating new 
technologies that are out there and some transformational 
technologies, taking it from the bench to lab scale.
     Our--a key priority to all of this is going to be 
continuing to reduce the cost of the technology so that you can 
get this broad deployment of these technologies.
     One of the things we try to do and the reason, 
Congresswoman Fletcher, we put in--and I asked and was 
successful in getting into the Clean Energy Ministerial carbon 
capture utilization sequestration technologies in a global way 
because, you know, one of our roles I think is American 
technology is how the world in a lot of cases gets transformed. 
And if we can take this type of technology, if we can continue 
to improve it where it's at commercial scale and get our 
friends in India and in China to take this technology and to 
implement it, then we really start having commercial-scale 
impact on the environment.
     So one of the reasons this is--you know, we continue to 
really push this is because of its applications globally, and 
so I'm--I can assure you that it's going to continue to stay a 
priority at the agency.
     Mrs. Fletcher. Well, in a follow-up to that question 
because it was concerning to me that the fiscal year 2020 
budget proposal, which I understand is just a proposal, but it 
had a 65 percent reduction in CCUS. And my understanding was 
that some of the rationale at least presented was that this 
would be a place where industry could better commercialize the 
technology. My understanding at this point is that while 
certainly we use it for enhanced oil recovery, generally, CCUS 
is not commercially viable. And so I guess the question I have 
for you in front of this Committee is what do you suggest that 
we do here to chart the path forward for CCUS and give you the 
tools that you need to continue that research at DOE?
     Secretary Perry. Yes, I tend to agree with your 
observation that it's going to still continue to require our--
DOE's engagement from the standpoint of expending some funds on 
innovation and technology, and this National Carbon Capture 
Center in Alabama is a great example of that.
     There's still work to be done, so--and if I could correct 
the record just on one thing that I said earlier, and I made 
mention that solar was producing more energy than hydro, it's 
actually wind energy. I should have known better in--being from 
Texas----
     Mrs. Fletcher. Thank you.
     Secretary Perry [continuing]. But I just--for the record.
     Mrs. Fletcher. Thank you, Secretary Perry. And with that I 
see I've exceeded my time, so I will yield back, Mr. Chairman.
     Mr. Casten [presiding]. The Chair now recognizes Mr. 
Sherman for five minutes.
     Mr. Sherman. Mr. Secretary, half a million people live 
within just 10 miles of the Santa Susana Field Nuclear 
Laboratory. Your Department signed the consent order for 
corrective action in 2007 and the administrative orders on 
consent (AOC) in 2010 with the California Department of Toxic 
Substance Control. The latter required full cleanup of the site 
by 2017, so in 2010 your Department agreed to full cleanup by 
2017. But to date no meaningful cleanup has occurred at all, so 
you're supposed to be completed by 2017; you haven't started by 
2019. Will you come to the San Fernando Valley and explain to 
people when this site will be fully cleaned up?
     Secretary Perry. Mr. Sherman, I would be more than happy 
to accompany you and try to explain--well, I'll do my best to 
explain that what happened the 7 years before I got here and 
why there wasn't any progress made on that, but I don't know if 
I'll be successful in convincing anybody but----
     Mr. Sherman. I look forward to joining you in the San 
Fernando Valley, and I thank you your----
     Secretary Perry. Yes, sir.
     Mr. Sherman [continuing]. In making that comment for the 
record.
     Countries that are friends live by the nonproliferation 
treaty if they signed it. Iran and North Korea have gone toward 
a nuclear program without the additional protocol with the IAEA 
(International Atomic Energy Agency). And we have Saudi Arabia, 
which claims to be our friend, but at least when it comes to 
nuclear matters, seems to be acting like a rogue state. The 
South Korean firm, Korea Electric Power Corporation, is talking 
to the--to Saudi Arabia about a large nuclear power 
construction project. That project, South Korean nuclear 
project, is based on American technology. Can you state for the 
record the Administration's position on whether this South 
Korean firm would need to see a 123 Agreement between the 
United States and Saudi Arabia to sell large nuclear reactors 
to Saudi Arabia?
     Secretary Perry. Mr. Sherman, what I think we--would be 
helpful here is if people understand that Part 810 and----
     Mr. Sherman. I'm going to get to a Part 810 question----
     Secretary Perry. Yes.
     Mr. Sherman [continuing]. But the first question is is 
South Korea free to build large nuclear plants in Saudi Arabia 
using American technology----
     Secretary Perry. Here would be my answer is it would be no 
because they would require a Part 810 before they could go into 
a--because that is U.S. technology.
     Mr. Sherman. I think they'd also need a 123 agreement, but 
I agree with you, it is U.S. technology.
     Secretary Perry. Yes, sir.
     Mr. Sherman. Can you commit to me that the Administration 
won't enter into a nuclear cooperation agreement with Saudi 
Arabia unless Saudi Arabia signs the additional protocol? This 
has been our bargaining position on these since the----
     Secretary Perry. Yes, sir, that's--that has been our 
position in all of our conversations that we have had with the 
Kingdom of Saudi Arabia.
     Mr. Sherman. Good answer. The Atomic Energy Act section 
303 requires that you keep Congress fully and currently 
informed on subject matters relating to atomic energy. You have 
issued at least seven Part 810 authorizations to allow U.S. 
companies to discuss and submit documents to Saudi Arabia 
seeking their business. It took my office about six months to 
get a copy of these Part 810s. Can you promise to provide the 
810 authorizations in the future if they relate to Saudi Arabia 
to both this Committee and the Foreign Affairs Committee 
promptly?
     Secretary Perry. Yes, sir. And let me just--the caveat on 
that, Mr. Sherman, would be unless the company deems them to be 
of proprietary information. At that particular point in time--I 
don't know all the specific details, but every bit of 
information that is publicly disclosable you can bet will----
     Mr. Sherman. Well, I would hope that you keep in mind 
Members of Congress are trusted----
     Secretary Perry. Yes, sir.
     Mr. Sherman [continuing]. With the most secret information 
of our intelligence and defense agencies. If I'm not going to 
reveal what I know from the CIA (Central Intelligence Agency), 
I think Westinghouse can trust me.
     Secretary Perry. Yes.
     Mr. Sherman. With that, I thank you for your answers, good 
answers. Thank you.
     Secretary Perry. Thank you.
     Mr. Casten. The Chair recognizes Mr. Perlmutter for five 
minutes.
     Mr. Perlmutter. Gentlemen, thank you for your testimony. 
Thanks for your stamina. We're getting to the end of the line 
here.
     So, first thing, Mr. Secretary, 2033, OK? I hold this 
bumper sticker up at a lot of hearings. The Under Secretary is 
familiar with this. This is when the orbits of Mars and Earth 
are the closest for decades, and we've been talking about 
getting our astronauts to Mars by 2033. And with your interest 
and your work with NASA on potentially nuclear propulsion as 
part of the ability to get our astronauts there is I just want 
to enroll you in getting our astronauts to Mars by 2033 and I 
want you to work with Mr. Bridenstine on that. You don't have 
to answer it. I just want to enroll all of you in this measure.
     Secretary Perry. Yes, I want to answer it, though.
     Mr. Perlmutter. All right.
     Secretary Perry. Buzz Aldrin will wear me out if we don't 
get ourselves to Mars as soon as we can.
     Mr. Perlmutter. All right. Thank you. I'm glad to hear 
that. No. 2, Dr. Foster, who was up here talking about Argonne 
and Fermi in Illinois and all that stuff, he is one of the most 
biased Co-Chairs in favor of his state than any of us could 
ever have. And I appreciate the visits that you all have made 
out to the National Renewable Energy Lab, which is in my 
district and obviously very proud of that.
     And I think some of the words you've used I think we've 
got to really take heart. And I'm going to lay into you guys a 
little bit because you used words like brilliant, capable, 
outstanding staff, your scientists, your technicians, your 
engineers, second to none in the world, OK? And you as the 
chief executive, you as the lieutenant, the CFO (chief 
financial officer) here, you've got a staff that's fantastic. 
And if you were back as Governor of Texas and you say to that 
staff, you know what, I'm going to cut your budget by 85 
percent, that's what you guys mean to me, I mean, when you say 
that, it hurts.
     And so Ms. Lofgren and you had an interesting 
conversation. You said I'm going to look to Congress to help me 
on this. But I'm going to say to you, Mr. Secretary, we look to 
you. We depend on you to defend your Department.
     So I'm going to just ask you, what are the dynamics that 
lead to something like an 85 percent cut to the Energy 
Efficiency and Renewable Energy portfolio?
     Secretary Perry. Yes. I'll give it back to you like I 
did--or I think I did----
     Mr. Perlmutter. Remember, last year, you and the Under 
Secretary and I talked about these budget cuts, which last year 
were pretty draconian. I said, look, I--you know, 
Administration to Administration you can, you know, kind of 
push a priority but you don't gut the rest of it. And you said, 
no, we don't want to do that, but again, it happened.
     Secretary Perry. But I don't think--that's not what--
that's not the budget, and we have a budget that's already been 
approved, and that's not what the budget is. I know what the 
OMB said, but, I mean, again, I go back----
     Mr. Perlmutter. So I guess my dynamics are between you and 
OMB (Office of Management and Budget), how does it really work? 
Because they come in with these budgets. They say this is what 
it's going to be and you have to say OK but we're going to work 
with Congress?
     Secretary Perry. Pretty much.
     Mr. Perlmutter. OK.
     Secretary Perry. I mean, I ain't going to lie to you.
     Mr. Perlmutter. All right.
     Secretary Perry. Listen, I----
     Mr. Perlmutter. No, I--no, that's why I'm asking you.
     Secretary Perry. I don't write that budget. And when I was 
the Governor of the State of Texas, I had a budget, and it 
would go over to the legislature, and I knew what it would turn 
out to be. And that was a doorstop.
     Mr. Perlmutter. All right. Well, so----
     Secretary Perry. And that's how OMB's budget----
     Mr. Perlmutter. Let me ask you this. So let's----
     Secretary Perry [continuing]. I think this Congress looked 
at it.
     Mr. Perlmutter. No, I appreciate this conversation. So as 
the head of the Department, when OMB comes back with these 
numbers that really aren't realistic that are going to change 
dramatically in Congress, what do you say to the staff? It 
doesn't matter? We're going to go to Congress and we'll see 
what they do?
     Secretary Perry. Pretty much.
     Mr. Perlmutter. All right. All right. OK. So that's enough 
of that.
     Secretary Perry. Listen, it's their----
     Mr. Perlmutter. I'm just--look----
     Secretary Perry. It's their--this is their prerogative. I 
understand how the process works. I don't get spun up--and----
     Mr. Perlmutter. But I don't want your staff to get spun 
up. That's the point. And that's where----
     Secretary Perry. I don't think they do.
     Mr. Perlmutter. All right. If----
     Secretary Perry. I don't think the national lab folks--
they know where I stand on this. They have heard me not only in 
word but in deed----
     Mr. Perlmutter. And we've seen that.
     Secretary Perry [continuing]. Supporting them.
     Mr. Perlmutter. We've seen that, and I appreciate that 
because you have defended and stood up for the National 
Renewable Energy Lab and these other labs, and I----
     Secretary Perry. And will continue to.
     Mr. Perlmutter [continuing]. Appreciate that. All right.
     Last thing, that laboratory, NREL, has something similar 
to--somebody else mentioned what we call the Collaboratory, 
which is the lab, Colorado University, Colorado State, the 
School of Mines----
     Secretary Perry. Yes.
     Mr. Perlmutter. [continuing]. Conoco used to be part of 
that group; I think they still may be--you know, as a way to 
provide the best minds toward, you know, advancing science and 
advancing the commercial use of some of these new technologies. 
So I just wanted to put that out there, that we've been doing 
that for a while.
     Secretary Perry. And that's interesting. It's some of 
these types of innovative solutions, options is how I look at 
managing DOE, you know, the--listen, OMB has their job. They do 
their job. I get that. But it's coming up with some of these 
solutions using the private sector, using some university 
resources and what have you to find the--you know, find a way 
to manage these, to get us to the point where we can have 
solutions that are----
     Mr. Perlmutter. All right. Thank you, gentlemen, and I 
yield back my time.
     Mr. Casten. Thank you. The Chair will now recognize 
himself for five minutes.
     Thank you so much for coming, Secretary Perry. I really 
appreciate it.
     Earlier this week, we had received reports that the 
Department of Agriculture was actively working to bury peer-
reviewed scientific reports on the impacts of climate change in 
the agricultural sector, and there's a significant problem. 
This Administration has some discomfort around objective truth, 
but as it comes to climate change, this is a real concern 
because if we are essentially going to reject the scientific 
method in our process, we're going to put not just the American 
people but our entire species at risk.
     So my question to you, Mr. Secretary, which is a real 
simple one--I don't think you'll need your notes for this--are 
you personally aware of any steps that your Department is 
taking to suppress reports that discuss climate change or its 
effect?
     Secretary Perry. No. As a matter of fact, we just 
announced today a----
     Mr. Casten. I've got a number of questions, so that's----
     Secretary Perry. OK.
     Mr. Casten. I'm delighted to hear that. That's terrific. 
Can I have your commitment that if you become aware of any of 
those efforts, you will exert your leadership role to make sure 
it doesn't happen?
     Secretary Perry. Sure.
     Mr. Casten. Terrific. I am delighted to hear that. I'm 
delighted to hear in your opening testimony that you accept 
that manmade climate change is real and something we have to 
deal with. I like to point out to people that in the hundred 
thousand years or so that our species has existed, 50 percent 
of all the CO<INF>2</INF> we have ever emitted was since 1980. 
That was the year that Nolan Ryan signed with the Houston 
Astros. That's within our collective memory, and the scale of 
that change is meaningful.
     As we warm the climate, the average temperature goes up by 
a few degrees, but the number of extreme events increases 
dramatically. You mentioned that in a number of your testimony 
as well. I know you're personally aware of this in Houston. I 
think these are easy. Presumably you would agree that there's 
been a significant increase in the number of extreme weather 
events?
     Secretary Perry. Yes.
     Mr. Casten. And would you agree that those are caused by 
global warming?
     Secretary Perry. I'm not sure I can----
     Mr. Casten. Would you agree that weather is a bell curve, 
and as you move the average on the bell curve, you increase the 
tails by a much greater percent than the middle?
     Secretary Perry. I'm not going to--you know, I have--those 
are your words, not mine. And I--listen, I think----
     Mr. Casten. Well----
     Secretary Perry [continuing]. Sitting here trying to----
     Mr. Casten. Well, I'm asking you to opine on basic 
statistics. If you're not comfortable----
     Secretary Perry. Yes.
     Mr. Casten [continuing]. With basic statistics, I'll move 
on, but----
     Secretary Perry. Yes.
     Mr. Casten [continuing]. I will----
     Secretary Perry. Here's what I'm not comfortable with----
     Mr. Casten. I will stipulate that----
     Secretary Perry. I'm comfortable with the Department of 
Energy is doing some really fascinating work on predictive 
modeling, and I hope you would be supportive of that----
     Mr. Casten. Well----
     Secretary Perry [continuing]. Rather than sitting here 
trying to go back and forth about do you believe this, do you 
believe that is look at what we're doing.
     Mr. Casten. Well, Secretary, I'm----
     Secretary Perry. And what we're doing is making some real 
progress on giving predictive real science-based evidence to 
this Committee and to the citizens of this country----
     Mr. Casten. Secretary Perry, if I may----
     Secretary Perry [continuing]. And that's what's important.
     Mr. Casten [continuing]. I agree. I think the Department 
of Energy is awesome. And I'm going to echo Mr. Perlmutter. You 
run a $12 billion agency that does fantastic work. The 
weatherization budget is zeroed out. What I need as a citizen 
and I think what we need as a Congress is for you to exercise 
leadership to defend those budgets and priorities even when the 
Administration doesn't because it is clear that OMB and the 
President are not supporting that.
     I want to shift to something that I think we may have a 
whole a lot of agreement on. I am delighted to hear you 
describe energy storage as the Holy Grail of energy. We've got 
this fantastic improvement in your state and elsewhere of 
resources that need storage to balance that load. It's why one 
of the first major bills I introduced when I got here was the 
bipartisan Promoting Grid Storage Act, which would create 
crosscutting R&D programs at DOE and technical assistance and 
demonstration programs to help the public and private sector 
de-risk and deploy those new storage technologies.
     Your budget, to its credit, increases the energy storage 
R&D supported by the Office of Electricity by 5 percent. That's 
about $2.5 million. It reduces spending in the Renewable Energy 
Vehicle Technologies program by 79 percent or $270 million. So 
that is a net drop of--it's rounded off--$270 million in 
funding for energy storage that I think from your testimony and 
sort of where I come from we agree.
     Can you help me understand and this Committee understand 
why, if energy storage is indeed the Holy Grail of technology, 
we have a budget that drastically defunds our commitment to 
deploy the energy storage that we need to keep our grid 
resilient and the mix of changing resources we have?
     Secretary Perry. In a broad sense what I would tell you is 
that the crosscutting technologies--I mean, just because we 
don't fund at the same level as we have historically or that 
you've seen in previous line items doesn't mean that there's 
not ongoing technology moving something forward. For instance, 
I would suggest to you that in some of the electric vehicle 
side of things we're--we've spent the dollars to get us to the 
point where we need to be with those, and we don't need to be, 
you know, spending more dollars going forward in that that 
we've already, you know, moved to a place where we're 
comfortable----
     Mr. Casten. But I'm talking about in aggregate total 
spending. Your budget would suggest that you think that the 
technologies are all mature and we don't need R&D anymore----
     Secretary Perry. Not----
     Mr. Casten [continuing]. Given a 79 percent cut.
     Secretary Perry. Not necessarily. What I'm saying is that 
I think that we have the ability to manage those dollars in a 
way where the priorities are. Are the priorities on the 
electric vehicle the place they were 4 years ago? No, because 
we've matured.
     Mr. Casten. OK. Well, given the comments just made to Mr. 
Perlmutter that it sounded like you were--you felt like the OMB 
budget was just something but we're going to fix that. We agree 
that energy storage is the Holy Grail. I think we agree that 
the budget doesn't meet that goal. What would you like to see 
Congress do----
     Secretary Perry. I----
     Mr. Casten [continuing]. To develop a budget that's 
actually going to deploy energy storage at the scale we need?
     Secretary Perry. I think the budget that we've got is 
appropriate to get us to the place that we need to be----
     Mr. Casten. Across the board?
     Secretary Perry. Yes, across the board, the budget that's 
already been approved.
     Mr. Casten. The OMB budget----
     Secretary Perry. No, the budget that----
     Mr. Casten [continuing]. The proposed budget?
     Secretary Perry. The '19.
     Mr. Casten. OK. OK. I yield back my time.
     Ms. Hill is recognized for five minutes.
     Ms. Hill. Thank you, Mr. Chairman.
     Secretary Perry, my colleague Mr. Sherman a few minutes 
ago engaged with you about the Santa Susana Field Lab. We are 
neighbors, and so I want to second what he stated given that 
many of my constituents are impacted by this site as well, 
which is just outside of my district. And although operations 
at the site ceased in 2006, it remains extremely toxic with 
both chemical and radioactive contamination. I'm deeply 
disappointed, along with my constituents, with that lack of 
action and transparency the DOE has shown with respect to clean 
up activities at the site over the last decade.
     As Mr. Sherman discussed, the DOE and NASA signed an 
administrative order of consent ordering that DOE and NASA take 
responsibility for their pollutants and contaminants at the 
Santa Susana Field Lab and do a full cleanup, which was 
supposed to be completed in 2017 and clearly has not been, and 
in fact nearly nothing of progress has happened.
     So can you speak more specifically about your plans of 
action for the complete cleanup of this site and how long it 
will take?
     Secretary Perry. I can--let me give you the--for the 
record here the Department, as you said, signed an 
administrative order of consent with California to clean up--
the background cleanup at the site. And the preferred 
alternative in the FEIS (Federal environmental impact 
statement) is not in the AOC cleanup for the following reasons. 
There are various factors that are included in making a 
recommendation for preferred alternative. These include 
considering the final land use of the site as open space and 
the ecological and cultural impacts of any cleanup option.
     Additionally, studies performed after signing the AOC 
identified less contamination than previously projected. When 
considering the factors with potential effects at the--at 
that--at the site, the preferred alternative would be the best 
option for the site to be clean in a way that ensures it will 
be protective of human health and the environment while 
avoiding unnecessary damage to the cultural and ecological 
resources present at the site. The final decision will be fully 
protective of human health and the environment.
     Ms. Hill. I understand that. So what's the progress in 
terms of the preferred alternative? Is there a negotiation that 
needs to happen? What are we looking at in terms of something 
being able to--I mean, no cleanup really has started, right? So 
even a preferred alternative I would like to see some action 
toward, and I'm wondering if you can speak to that.
     Secretary Perry. May I get Under Secretary Dabbar to----
     Ms. Hill. Yes, thank you.
     Secretary Perry [continuing]. Share with you----
     Mr. Dabbar. The environmental impact statement was 
completed by us, and sorry we can't comment what happened in a 
previous leadership team, but we completed that. We submitted 
that to the State, and we're working with the State on the 
actual specifics of what would make sense, given that 
environmental impact statement. We look forward to working with 
the State of California on that.
     Ms. Hill. Thank you. So I know that you mentioned to Mr. 
Sherman or my colleague that you might visit our region and----
     Secretary Perry. Yes.
     Ms. Hill [continuing]. Speak about this with our 
constituents, and I look forward to discussing those plans 
further.
     Secretary Perry. Happy to.
     Ms. Hill. I know that the other piece that has been 
somewhat confusing to our region is the level of resources that 
have been allocated to clean up. And I do recognize that this 
happened before your Administration, but can you explain how 
the Department decides to distribute the funds between nuclear 
cleanup sites?
     Secretary Perry. Well, I think we go through a process 
of--I mean, when you look at the history of this country, when 
you look at Hanford, for instance, when you look at the 
Manhattan Project and all of the cleanup--that we have a 
massive amount of work to be done in the future. So, you know, 
we prioritize it as best we can, and I think do a relatively 
passable job of--my bet is you think they probably need to 
spend a little bit more money, and the San Fernando Valley 
would be my----
     Ms. Hill. I'm guessing everybody wants more money to be 
spent----
     Secretary Perry. And I'm pretty sure----
     Ms. Hill [continuing]. On their cleanup.
     Secretary Perry [continuing]. That the Senators from 
Washington State have a--the same observation, that there's not 
enough money spent in the Hanford site to suit them.
     Ms. Hill. I do think that it would be worth us taking a 
better look at just how these decisions are made, maybe some--
--
     Secretary Perry. I don't disagree with you.
     Ms. Hill [continuing]. Metrics and how we can just better 
understand that and explain it back to our constituents as 
well. But I do commend the Department for restarting the low-
dose radiation program, and if we want fewer resources to be 
spent on cleanup, we should change our radiation limits in 
regulation.
     Really quick, I know I don't have a lot of time left, but 
I want to turn to freedom gas and renewables. And, Secretary 
Perry, last month you released an announcement that the 
Department of Energy would be expanding Freeport LNG facility 
in Texas to spread freedom gas to other countries. And while I 
applaud the desire to increase the economic competitiveness of 
the United States throughout--through the export of energy 
technologies to other countries, I'm concerned that the 
majority of the time is spent advocating for coal and natural 
gas as opposed to renewable sources.
     So I'm wondering if you can just talk about how--how those 
other sources of energy, whether it's solar, wind, hydropower 
and geothermal----
     Secretary Perry. Yes.
     Ms. Hill [continuing]. Are going to be included in these 
plans in terms of export.
     Secretary Perry. Again, I remind people of my history with 
wind. There was not an elected official in the country, not a 
Governor, not a President, no one who has a record that is any 
more productive when it comes to a renewable, in this case 
wind, than I had as the Governor of the State of Texas. So--and 
we continue to promote them and talk about them. We do an all-
of-the-above impact.
     But let me get with specificity to LNG and why you may--or 
it may appear to a lot of folks that you spend an inordinate 
amount of time promoting liquefied natural gas. And I don't shy 
away from that. I do. I think it's a--I think it is a clean-
burning fuel that every molecule of LNG that we can get into 
the market displacing older, inefficient coal-burning plants in 
Europe, for instance, is a win for the climate.
     And I'm going to continue doing that because I think the 
idea that, you know, the--not only is it in our best interest 
from a geopolitical standpoint, it's also in the climate's best 
interest, and I think it's in the world's best interest.
     So we promote an all-of-the-above approach. I--we, by and 
large, don't try to pick winners from losers. We try to explain 
to people why the technology may be better for them to go one 
way or the other. But, by and large, we stick with the all-of-
the-above approach. And if it can come from the United States 
and be United States-friendly technology-wise or resource-wise, 
then I think that's good for us.
     Ms. Hill. Well, I know I'm out of time and I want to thank 
you----
     Secretary Perry. Yes.
     Ms. Hill [continuing]. And I yield back.
     Mrs. Fletcher [presiding]. Thank you. I'll now recognize 
Mr. Lipinski for five minutes.
     Mr. Lipinski. Thank you. Thank you, Mr. Secretary, for 
being here, for your testimony. You talked about high-
performance computing, the importance of it. You were at 
Argonne National Lab a couple months ago for an announcement on 
the Aurora computer, so thank you for coming out there. Just 
last week in the House Energy and Water appropriations bill I 
introduced an amendment, we passed the amendment to provide 
additional funding for the Argonne leadership computing 
facility support personnel and help us to hopefully speed 
through the process of this exascale computer.
     So can you elaborate on the potential of exascale 
computing and the ramifications if we fall behind as we are 
racing China on this?
     Secretary Perry. Yes. Mr. Lipinski, I think the most--the 
simplest way that I tell people about what's going on with 
exascale and then quantum computing is this: Who gets to 
quantum first wins. And I know that's--that may be so 
simplistic and--but it's really true. And the work that we're 
doing getting us to exascale, obviously that Aurora computer at 
Argonne is one of the first steps. I think the next one is out 
at Lawrence Berkeley in getting us to exascale. And that's 
doing, as I said earlier, a billion billion transactions per 
second.
     Then, the next step is quantum, and at that particular 
point in time--and for the United States to get to that first, 
it's going to impact everything across the board because the 
artificial intelligence, the machine learning that goes along 
with them and being able to manage that much data is kind of 
the name of the game. So----
     Mr. Lipinski. Thank you. Well, I appreciate your support 
and we need to continue to support it and provide the funding 
that's necessary to move this forward.
     I want to move on to artificial intelligence efforts. The 
DOE has many efforts going on, as well as other Federal 
agencies. I know that the Administration is taking steps to 
improve coordination of AI, but I think the coordination 
efforts could be improved, so, earlier this year, I introduced 
the Growing Artificial Intelligence Through Research Act, which 
in part ensures that they're an essential coordinating entity.
     So I just wanted to ask, can you describe how AI efforts 
are coordinated across DOE, as well as coordinated with other 
Federal agencies, and how might your AI efforts benefit from 
additional coordination?
     Secretary Perry. Yes. Mr. Lipinski, your question is 
pretty timely. I mentioned this a little earlier. But tomorrow, 
I'm doing a little tour of DARPA of which we're talking about 
the coordination between DOE and in this case DOD and the 
Defense Advanced Research Projects Agency over there. And so 
they're very focused on AI.
     Now, in a lot of cases, as Under Secretary Dabbar said, 
they have a different mission than DOE does, but we complement 
each other. And what we want to do is make sure that we're not 
duplicating, that we are in fact complementing, that there's 
some synergy that comes out of the dollars that we're spending 
dealing with artificial intelligence and how we combine those.
     Nuclear security is part of this. The electric grid 
security is part of this. All of these areas are going to--
cybersecurity, you know, modeling for the--Mrs. Fletcher, the 
thing that I mentioned with Mr. Carson earlier about the 
predictive modeling that DOE has gone into so we can better 
predict what's going to happen with these severe storms, these 
computers, this artificial intelligence that's going to be 
managed with these computers, with this predictive modeling, 
this--these are examples of where we can stand up in front of 
our constituents and say, listen, here's where your tax dollars 
are being spent, and here's some good return on that investment 
that you're having. Self-driving cars, I mean, this list goes 
on and on.
     Mr. Lipinski. Thank you. I just want to get in one more 
question.
     Secretary Perry. Yes.
     Mr. Dabbar. Mr. Lipinski, I think actually Argonne is 
really at the cutting edge of your exact topic. Let me just 
quickly comment to it. Historically, AI has been looked--has--
primarily people have been focused on it as image capture and 
data--pattern recognition. That's what most people talk about 
when they talk about AI. Argonne is much farther down the road 
on this, and this deals with your exact point, which deals with 
coordination. Using AI to learn first principles at physics, at 
chemistry, at biology, and of materials. For AI to actually do 
research based on first principle science is actually where AI 
is going. And so I think your bill is very important.
     And about coordination, what they're doing at Argonne I 
think is very much at the cutting edge because this isn't just 
about the advanced computing. And Rick Stevens at Argonne, they 
just showed up here and just laid out--the head of materials 
and chemistry from Argonne, the head of the light source for 
imaging, and the head of computing. And they're developing a 
holistic cycle of research based on first principles of using 
AI to drive first principles of physics and of materials and 
then using the imaging machine at Argonne as all one organized 
entity for--to do research. This is actually where research is 
going.
     Mr. Lipinski. And I just for the record, I'm going to ask 
you, because my time is up, if you can get more information 
about the funding opportunity announcement for fiscal year 2020 
about the two or more multidisciplinary quantum research 
centers. I wanted to find out more about that. It's something 
I'm very interested in. It's something also that Argonne is 
very interested in. So----
     Secretary Perry. Yes, sir. We'll get it, and we'll get it 
on the record.
     And let me just finish by saying October, this coming 
October, there will be an XLab event at Argonne, and it is 
focused on artificial intelligence. I hope you'll be there.
     Mr. Lipinski. Thank you.
     Secretary Perry. Yes, sir.
     Mr. Lipinski. I yield back.
     Mrs. Fletcher. Thanks. Before we bring the hearing to a 
close, I want to thank Secretary Perry for coming to testify 
before the Committee today.
     The record will remain open for two weeks for additional 
statements from Members and for any additional questions the 
Committee may ask of the witness.
     The witness is excused, and the hearing is now adjourned.
     Secretary Perry. Thank you, Madam Chair.
     [Whereupon, at 12:56 p.m., the Committee was adjourned.]


                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Answers to Post-Hearing Questions
Responses by the Honorable Rick Perry


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              Report submitted by the Honorable Rick Perry


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
